<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-54]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                AIR AND LAND FORCES SUBCOMMITTEE HEARING

                                   ON

                       BUDGET REQUEST ON UNMANNED

                       AERIAL VEHICLES (UAV) AND

                    INTELLIGENCE, SURVEILLANCE, AND

                   RECONNAISSANCE (ISR) CAPABILITIES

                               __________

                              HEARING HELD
                             APRIL 19, 2007

                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-667 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                  
  




























                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          JIM SAXTON, New Jersey
SOLOMON P. ORTIZ, Texas              HOWARD P. ``BUCK'' McKEON, 
SILVESTRE REYES, Texas                   California
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ELLEN O. TAUSCHER, California        FRANK A. LoBIONDO, New Jersey
ROBERT A. BRADY, Pennsylvania        TOM COLE, Oklahoma
JIM MARSHALL, Georgia                ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                PHIL GINGREY, Georgia
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GABRIELLE GIFFORDS, Arizona          GEOFF DAVIS, Kentucky
KENDRICK B. MEEK, Florida            W. TODD AKIN, Missouri
KATHY CASTOR, Florida                DOUG LAMBORN, Colorado
                 Doug Roach, Professional Staff Member
                Lynn Williams, Professional Staff Member
                       Ben Kohr, Staff Assistant





























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, April 19, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on Unmanned Aerial Vehicles 
  (UAV) and Intelligence, Surveillance, and Reconnaissance (ISR) 
  Capabilities...................................................     1

Appendix:

Thursday, April 19, 2007.........................................    43
                              ----------                              

                        THURSDAY, APRIL 19, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
  UNMANNED AERIAL VEHICLES (UAV) AND INTELLIGENCE, SURVEILLANCE, AND 
                   RECONNAISSANCE (ISR) CAPABILITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Saxton, Hon. Jim, a Representative from New Jersey, Ranking 
  Member, Air and Land Forces Subcommittee.......................     3

                               WITNESSES

Alles, Brig. Gen. Randolph D., Commanding General, Marine Corps 
  Warfighting Lab, U.S. Marine Corps.............................    27
Clingan, Rear Adm. Bruce W., Deputy Chief of Naval Operations, 
  Deputy Director, Air Warfare, U.S. Navy........................    26
D'Agostino, Davi M., Director, Defense Capabilities and 
  Management Issues, Government Accountability Office; Sharon L. 
  Pickup, Director, Defense Capabilities and Management Issues, 
  Government Accountability Office; and Michael J. Sullivan, 
  Director, Acquisition and Sourcing Management Issues, 
  Government Accountability Office...............................     4
Davis, Brig. Gen. Walt, Commander, Joint Unmanned Aircraft 
  Systems Center of Excellence, U.S. Army........................    24
Deptula, Lt. Gen. David A., Deputy Chief of Staff for 
  Intelligence, Surveillance, and Reconnaissance, U.S. Air Force.    24
Landon, John R., Deputy Assistant Secretary of Defense for 
  Command, Control, Communication, Intelligence, Surveillance, 
  Reconnaissance and Information Technology Acquisition (C3ISR & 
  IT Acquisition), Office of the Secretary of Defense............    23
Sorenson, Maj. Gen. Jeffrey A., Deputy for Acquisition and 
  Systems Management, Office of the Assistant Secretary of the 
  Army for Acquisition, Logistics and Technology, U.S. Army......    25

                                APPENDIX

Prepared Statements:

    Alles, Brig. Gen. Randolph D.................................   135
    Clingan, Rear Adm. Bruce W...................................   125
    D'Agostino, Davi M., joint with Sharon L. Pickup and Michael 
      J. Sullivan................................................    47
    Davis, Brig. Gen. Walt.......................................    83
    Deptula, Lt. Gen. David A....................................    90
    Landon, John R...............................................    74
    Sorenson, Maj. Gen. Jeffrey A................................   108

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Abercrombie..............................................   145
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
  UNMANNED AERIAL VEHICLES (UAV) AND INTELLIGENCE, SURVEILLANCE, AND 
                   RECONNAISSANCE (ISR) CAPABILITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                          Washington, DC, Thursday, April 19, 2007.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Aloha. Good morning, everyone. Thanks for 
being here today.
    We have some pretty extensive testimony. Two panels, so we 
will get right to it.
    I would like to make an opening statement and then defer to 
my good friend and compatriot here on the subcommittee, Mr. 
Saxton, Jim Saxton, from New Jersey.
    The Air and Land Forces Subcommittee meets today to receive 
testimony from the Government Accountability Office (GAO) and 
the Department of Defense (DOD) witnesses regarding 
intelligence, surveillance and reconnaissance programs and 
policies, ISR, intelligence, surveillance and reconnaissance 
programs.
    They include the spectrum of manned and unmanned vehicles, 
from very small unmanned vehicles that weigh less than a pound, 
to a variety of Unmanned Aerial Vehicles (UAVs) and manned 
aircraft programs, to multi-billion-dollar, highly classified, 
satellites. Some ISR programs, like the satellite programs and 
the U-2 aircraft, fall within the jurisdiction of other 
subcommittees.
    ISR program systems incorporate various sensor payloads, 
including electro-optical, radar, electronic and infrared, as 
well as ground stations, data links and users that include the 
immediate needs of the warfighter to intelligence analysts.
    Let me say parenthetically, it is not that I believe that 
the panel members don't know most of these things, but this is 
a public meeting for the record and I want to make sure that 
everyone, including the panelists, at least have the same basic 
foundation for a start and also, of course, to inform the 
public.
    Please don't think I am patronizing you in any way by this 
opening statement. I don't know about Mr. Saxton, but that is 
not my intent.
    Further, ISR policies and acquisition programs involve 
major involvement by a variety of organizations, including all 
the military services, the combatant commands and the 
intelligence agencies, all 5 million of them, the Defense 
Advanced Research Projects Agency (DARPA), and more recently, 
the Joint Improvised Explosive Device Defeat Organization 
(JIEDDO).
    There is concern as to whether an organization exists 
within the Department of Defense with sufficient information 
across the spectrum of ISR programs with the authority to 
properly direct resources and avoid wasteful, uncoordinated 
expenditure of resources. That is probably a key element in all 
of this.
    Parenthetically here, we have been going over all of the 
various programs just dealing with improvised explosive devices 
(IEDs), for example. I think we stopped at 130, one hundred and 
thirty, last night. Programs, approaches, suggestions, 
methodologies and so on. And that is just within one particular 
bailiwick of the 5 million intelligence agencies.
    So it is not so much that it gets complicated. It is 
overwhelming and detailed to the point that you lose the 
perspective about where you are going and why. And most 
clearly, at least to me, is the question of who is in charge, 
where is the authority, who can make decisions in an 
expeditious way, that we can manifest in our deliberations here 
in the Congress.
    A U.S. Strategic Command senior study group tasked to 
review ISR programs recently concluded that there is no 
authoritative ISR baseline to determine requirements. The GAO 
indicates that the Department of Defense's ISR roadmap, 
required by Congress in 2004 and published in 2005 and again in 
early 2007, does not identify future requirements, does not 
identify funding priorities and lacks a means of measuring 
progress in meeting requirements.
    Again, parenthetically, as you know, if that happens, then 
the Congress is going to step in, and you know how insightful 
that is going to be.
    While DOD has made some progress in coordinating the 
acquisition of some ISR systems, significant progress needs to 
be made as ISR programs continue to proliferate.
    As examples: the Joint Improvised Explosive Device Defeat 
Organization alone includes a budget request of $4.5 billion 
for 130 ISR projects that I just mentioned; the Army has 18 UAV 
ISR science and technology projects, including 3 projects 
investigating flapping-wing UAVs; the Army and Navy, less than 
2 years ago canceled a $900 million development program for 
joint Aerial Common Sensor (ACS) aircraft and sensors because 
of an estimated doubling of cost and an estimated 2-year slip. 
That program has now been slipped five years, and the Navy and 
Army intend to each acquire their own system.
    The Air Force believes that there is an unnecessary 
duplication of UAV program acquisition offices, training 
operations, logistics and maintenance operations and 
intelligence support facilities.
    Even though Central Command and all of the other combatant 
commands have their own joint intelligence center, the Joint 
Improvised Explosive Defeat Organization has created its own 
with 600 people and 200 contractor personnel. The 
Subcommittee's challenge is to attempt to understand this vast 
variety of programs and projects across the spectrum of the 
Department and to deal with it. And I assure you, we will deal 
with it in this Congress from this subcommittee. 
Recommendations will be forthcoming.
    So we look forward to hearing from all our witnesses on 
these and other important issues.
    With that, I will conclude my statement. And as I said at 
the beginning, defer to my good friend and colleague and I 
might say my mentor on this subcommittee, the Honorable Jim 
Saxton.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
        RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Saxton. Mr. Chairman, thank you, Mr. Chairman.
    I would like to associate myself with the words of your 
opening statement. And let me just say very, very briefly, we 
have had the opportunity to view ISR capability that has 
emerged as a result of the new threats that exist today. As we 
move from the Cold War era and the threat that we faced there 
into the new era of asymmetric threat, it was necessary for us 
to develop some new capabilities. And without being specific 
about those new capabilities in this setting, we have done 
that.
    The question today is whether our new capabilities are 
organized in a way that give us the best bang for the buck. Or 
is there a way that they should be organized that does enhance 
our capabilities in two ways. One, to use the assets that exist 
today and, second, to be sure that we are in a position to best 
develop capabilities for the future.
    So that is what to me this hearing is about today and I 
look forward to hearing from both panels.
    And, Mr. Chairman, with that I will yield back the balance 
of my time.
    Mr. Abercrombie. Thank you very much, Jim.
    Let us go forward then with the GAO panel, panel number 
one. I am going to read in order, and if you could speak in the 
order that I read it, I think it would be most useful for us.
    Ms. Davi D'Agostino, who is the Director of Defense 
Capabilities and Management issues; Ms. Sharon Pickup, Director 
of Defense Capabilities and Management issues; Mr. Michael 
Sullivan, Director of Acquisition and Sourcing Management 
issues.
    Without objection, all the witnesses' prepared testimony 
will be included in the hearing record. If you could 
summarize--I know you have heard this before, but if you could, 
it would be useful so that we can get into the meat of the 
hearing. We do have the testimony. We have gone over the 
testimony, and I think you will find questions and observations 
from the members will reflect that they are familiar with the 
material.
    Ms. D'Agostino, please.

STATEMENT OF DAVI M. D'AGOSTINO, DIRECTOR, DEFENSE CAPABILITIES 
AND MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE; SHARON 
   L. PICKUP, DIRECTOR, DEFENSE CAPABILITIES AND MANAGEMENT 
   ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE; AND MICHAEL J. 
SULLIVAN, DIRECTOR, ACQUISITION AND SOURCING MANAGEMENT ISSUES, 
                GOVERNMENT ACCOUNTABILITY OFFICE

                STATEMENT OF DAVI M. D'AGOSTINO

    Ms. D'Agostino. Thank you. We do have one combined 
statement to provide orally for the record.
    Mr. Abercrombie. Thank you.
    Ms. D'Agostino. Thank you.
    Mr. Chairman and members of the subcommittee, we are 
pleased to be here before you this morning to discuss GAO's 
work for this subcommittee on the Department of Defense's 
management and acquisition of ISR assets, including unmanned 
aircraft systems.
    As you know, the demand for all types of ISR assets, 
including manned and unmanned, airborne and space capabilities, 
has increased significantly as battlefield commanders at all 
levels have found them an important tool in conducting many 
types of military operations.
    In a fiscally constrained environment, DOD plans 
substantial investments in ISR assets in the future to enable 
it to better meet requirements for expanded or new capabilities 
which makes it imperative that DOD have a sound approach.
    We testified before this subcommittee last year on one 
component of DOD's ISR enterprise, unmanned aircraft systems. 
Both before and since then, DOD has taken some steps intended 
to enable it to take a more integrated approach to assessing 
future ISR requirements and established a new organization to 
help integrate and better allocate existing assets to improve 
support to combat operations.
    We are currently doing work for the subcommittee on a 
number of issues related to DOD's plans for assessing ISR 
requirements for future systems, managing the ISR assets it 
already has and acquiring ISR systems, and we plan to issue 
reports to you later on this year.
    Because our work is not complete at this time, today we 
will offer our preliminary observations on these matters to 
you.
    Specifically, we will discuss our work to date on, one, the 
status of DOD initiatives aimed at improving the management and 
integration of ISR requirements and challenges the department 
faces in implementing the initiative; two, DOD's approach to 
managing existing ISR assets to support ongoing military 
operations; and, three, the status of selected ISR programs and 
development and the potential for synergies between them.
    First, in reviewing DOD's efforts to look at its ISR assets 
across the enterprise, we noted that DOD has taken some actions 
intended to improve the assessment of ISR requirements for 
future systems across the department. These efforts, if 
implemented properly, could enable DOD to meet more of the 
growing demand for ISR capabilities more efficiently.
    For example, in response to the statutory requirement, as 
you mentioned, Mr. Chairman, DOD has developed and is updating 
an ISR integration roadmap. The roadmap is noteworthy in that 
it sets out some strategic goals and objectives for DOD's ISR 
enterprise and it does catalog all systems in development.
    Also, as you noted in your opening statement, Mr. Chairman, 
our preliminary work shows that the roadmap does not yet 
identify future requirements, identify funding priorities or 
have ways to measure progress toward strategic goals for the 
ISR enterprise. Also, importantly, the roadmap does not yet 
define requirements for global persistent surveillance, clarify 
what ISR requirements are already filled or possibly saturated 
or specific gaps or otherwise represent an architecture of what 
the ISR enterprise is to be.
    In another recent initiative, DOD designated ISR as a test 
case for its joint capability portfolio management concept. The 
test case is to explore whether managing groups of ISR 
capabilities across DOD versus on a service or individual 
system basis will enable interoperability of future systems and 
reduce redundancies and gaps. The concept is only about one 
year old, so it is too early to tell how successfully it will 
be implemented.
    Currently, the portfolio managers are in an advisory role 
and can comment on the military services ISR plans but cannot 
direct changes. The Department has not yet assessed the test 
cases and come to a position on whether the managers need more 
authority to direct service plans.
    Turning to our review of DOD's approach of managing its 
existing ISR assets, including unmanned aircraft systems, our 
ongoing work indicates DOD lacks adequate visibility to 
optimize the use of those assets and metrics to evaluate their 
performance. Specifically, greater visibility is needed in both 
allocating existing assets to combatant commanders and tasking 
these assets during ongoing operations.
    With regard to allocation, the U.S. Strategic Command is 
charged with recommending to the Secretary of Defense how best 
to allocate on an annual basis DOD ISR assets to combatant 
commanders. However, our work suggests that Strategic Command 
does not have all the information it needs to insure it is 
leveraging all available ISR capability in making its 
allocation decisions. While it has visibility into about 80 or 
90 percent of DOD's assets, it does not have complete 
information on national-level and allied assets. As a result, 
its allocation decisions consider only a portion of the 
available capabilities.
    To its credit, Strategic Command is working to take steps 
to gain greater visibility.
    With regard to tasking or assigning ISR assets to specific 
missions during ongoing operations, DOD's current approach 
again does not provide sufficient information and, therefore, 
visibility on how ISR assets at all levels are being used. 
Specifically, while the commander responsible for planning, 
coordinating and monitoring joint air operations has 
information on how the ISR assets supporting theater-level 
requirements are being used, the commander does not currently 
have information on how tactical ISR assets or those embedded 
in individual units are being used, nor do individual units 
have information on how theater-level assets and tactical 
assets in other units are being used.
    As a result, DOD is limited in its ability to fully 
leverage and optimize the capabilities of all available ISR 
assets in a way that assures operational needs are addressed in 
the most efficient and effective manner.
    Our work also indicates DOD lacks metrics and feedback for 
systematically tracking the effectiveness of its ISR missions. 
DOD currently assesses its ISR missions with limited 
quantitative metrics, such as the number of targets plans 
versus the number collected, but it has made only limited 
progress in developing qualitative metrics that would help the 
department better understand the intelligence collected and how 
it helps accomplish the mission. Also, it does not have a fully 
developed mechanism for getting feedback directly from the 
supported units.
    Without better visibility and performance evaluation, DOD 
cannot evaluate the true demand for ISR assets, determine 
whether it is allocating and tasking them in the most effective 
manner or insure that it is acquiring new systems that best 
support the warfighting needs.
    Finally, turning to our review of 13 ISR systems currently 
in development, we assessed the potential for synergies between 
them and identified some programs where program managers and 
services are working together to gain efficiencies. We also 
identified cases where less collaborative efforts could lead to 
more costly and redundant stovepipe solutions. For example, we 
found additional opportunities for synergies in cases such as 
Global Hawk and Broad Area Maritime Surveillance.
    Also, of the 13 airborne ISR programs we reviewed, most 
have encountered either cost growth or schedule delays. These 
problems are typically the result of not following a knowledge-
based approach as called for in Defense policy. In some cases, 
the resultant delay in delivering new capability to the 
warfighter has led to unplanned investments to keep legacy 
systems relevant and operational until the new capability is 
finally delivered.
    DOD recognized in its quadrennial defense review it needs 
to develop a more flexible and responsive set of ISR 
capabilities to support the joint warfight across the 
department. Steps taken thus far to integrate requirements are 
positive developments, but they are new and there are some 
limitations. In the future, we hope that DOD will continue to 
focus on developing a more comprehensive, integrated approach 
to identifying future requirements and managing currently 
available assets as well as taking advantage of synergies to be 
gained in developing new or expanded systems.
    This concludes our oral statement. And we are happy to 
answer any questions you may have.
    [The joint prepared statement of Ms. D'Agostino, Ms. Pickup 
and Mr. Sullivan can be found in the Appendix on page 47.]
    Mr. Abercrombie. Thank you. That was really an excellent 
summary. Not a word wasted in it. Thank you very much.
    Mr. Sullivan, you don't lack for work, do you? I see you 
all the time in here.
    Mr. Sullivan. Support role today, sir.
    Mr. Abercrombie. Okay, very good. Do you ever get to go 
home?
    Mr. Sullivan. Sometimes.
    Mr. Abercrombie. Okay. Good for you. We appreciate it. 
Thank you very much.
    Mr. Sullivan. Thank you.
    Mr. Abercrombie. I will go to Mr. Saxton for questions. I 
will defer mine and go to Mr. Saxton as ranking member, and 
then we will take it in order, alternating by seniority today.
    Mr. Saxton. Thank you, Mr. Chairman.
    Ms. D'Agostino, the majority, I would say, of experience 
that we have had with UAVs has obviously been in Iraq. And I am 
told that you have been there to view for yourself--yes?--to 
view for yourself----
    Ms. D'Agostino. Ms. Pickup's team has been there.
    Mr. Saxton. Okay.
    So I guess my question is this: What have we learned from 
our experience in Iraq about the use of UAVs? How successfully 
have we been able to gather information using UAVs? And in your 
opinion, have the changes that have been made in how we are 
organized to use them been helpful?
    Ms. Pickup. Well, sir, appreciate your question.
    We haven't actually been to Iraq, but my team has more 
importantly been to the combined Air Operations Center in 
Qatar, which, you know, from which the commander responsible 
for planning and coordinating the air operations resides.
    And so, you know, we were actually able to talk to the 
knowledgeable folks and actually witness the planning, 
management and execution of ISR support to the ground. And 
while they were there, they were also able to talk to some 
operational commanders in Iraq and Afghanistan.
    And as you mentioned, I don't think anyone can dispute the 
operational success of the unmanned systems. And, you know, 
there is anecdote after anecdote in terms of how well they are 
being used, and I think that is also evidenced in the 
increasing demand by our respective combatant commands. And you 
see that in the funding requests that the chairman mentioned.
    In terms of our view on management, we do think some 
improvements are needed and as Ms. D'Agostino mentioned in the 
oral summary, it is all about the visibility and how much 
information the air component commander has in terms of the 
actual ISR capabilities that reside in theater.
    And while the air component commander has very good 
information at theater level for assets such as the Predator, 
in terms of where they are, how they are operating, what they 
have been tasked against and what the specific mission that 
they have been assigned to perform is, the commander doesn't 
have the same level of fidelity for assets that are embedded 
into individual units, for example the Army's Hunter.
    That is not to say from an airspace integration and air 
traffic control perspective that the air component commander 
doesn't know where the assets are or the zones in which they 
are operating, but it is more in terms of the missions that 
they have been assigned to and how well they are performing 
and, you know, while some level of duplication is necessary, we 
have heard some anecdotes of some inefficiencies where perhaps, 
you know, a unit was in contact.
    They were able to procure a Hunter to come on the scene to 
help them collect intelligence. At the same time, they were 
trying to secure the use of Predator, and when the Predator 
arrived on the scene, the Hunter was there. So it just raised 
questions about efficiencies and employment of the 
capabilities.
    Mr. Saxton. My limited experience--well, first of all, we 
have seen all the briefings here, or many briefings here 
relative to capability the various platforms provide, but my 
one experience, of course, in Iraq led to a change in the way 
our capabilities were organized.
    Whenever any of us go overseas and talk to military folks 
who are in an operational theater, one of the questions we say 
is, ``What can we do to help you?''
    And on one occasion, as we were associated with some 
special operations command people, commanders in a certain 
location in Iraq, we asked that question. And the commander 
said, ``We need to have control of Predator. It is not working 
well for us to have to coordinate and depend on the current 
system,'' which as I understood it at the time was what I 
called the big Air Force controlling Predator, Special 
Operations Command (SOCOM) needed to control their own 
Predators.
    Today that change has been made and I understand that SOCOM 
does control their own Predators and at a briefing as recent as 
about an hour and a half ago, they told us, that is SOCOM told 
us, that it is now working much better.
    So I am wondering what that experience tells us in terms of 
how we should proceed to go forward.
    Ms. Pickup. Well, I think in terms of the actual management 
piece, you are exactly right. I mean, the special operations 
command is probably a special case in terms of the types of 
missions they perform and their own funding line and in the 
case of what I just spoke to, the air component commander 
doesn't always have full visibility on what the special 
operations command assets are doing, because of the nature of 
their mission. But from an airspace integration standpoint, 
they have a general sense of where the assets are operating.
    In terms of the issue of operational control, you know, I 
think that regardless of whether they are controlled by a 
special operations unit, they are controlled by the air 
component commander or they are controlled by an individual 
army unit per se, what we think is important is that the DOD 
has a mechanism whereby everybody is aware of what capabilities 
exist so that if you do want to do some dynamic tasking in a 
realtime situation, that you can do that.
    Mr. Saxton. Thank you.
    Let me just ask you one other quick question, because I 
don't want to overextend my welcome here in terms of the 
chairman's latitude with time.
    Going forward, I understand there are some issues that had 
to do with bandwidth problems in the employment of UAV assets, 
particularly in Iraq. Would you speak to that, just briefly?
    Ms. Pickup. Well, I think this is not, obviously, a new 
problem. It has been the case for a long time. And I think that 
the growing numbers of assets in theater is adding to the 
congestion.
    I mean, I think one of the things that we have noticed in 
our work is the criticality of advances coordination. And one 
of the things that we have found is that while Central Command 
(CENTCOM) has some procedures for advanced coordination, that 
there is some, you know limited awareness on the part of the 
services. So we have seen some cases where assets might get 
into theater and then you have to deal with where do we base 
them or, you know, the frequency congestion issue.
    So our thought is there needs to probably be some more done 
in the way of guidance and communication strategy. That is not 
to say that things--that the instances we have seen showed up 
sight unseen, but there could have been some more advanced 
coordination.
    Mr. Saxton. Have we reached a saturation point in theater, 
where this has become a real problem?
    Ms. Pickup. I can't definitively say that we have reached a 
saturation point, but I would say that from the anecdotes that 
we have heard, that we are getting pretty close. And that, you 
know, from the standpoint of, you know, it is really important 
to maximize the capabilities that you have and to make sure 
that you have good information and you are getting a good 
return on investment in the way that you employ them, but I 
can't specifically say that we have reached the saturation 
point. But I think that there needs to be a hard look at how 
the capabilities are being used.
    Mr. Saxton. Thank you very much.
    Mr. Chairman, I yield back the--whatever.
    Mr. Abercrombie. Thank you.
    Before I go to Mr. Reyes, I inadvertently neglected in my 
opening statement to pay tribute and give thanks, my personal 
thanks, to my predecessor as chairman of this subcommittee, Mr. 
Weldon, Curt Weldon.
    I personally would not even remotely have the background 
and such information irrespective as I do had it not been for 
the efforts of Mr. Weldon when he was chairman to pursue this, 
all of the issues associated with the hearing today, and to 
recognize, I think, almost before anybody else, what the 
possibilities were for unmanned aerial vehicles were, both in 
terms of variety, of mission capability and what would be 
involved logistically in accomplishing it and, more importantly 
for us, legislatively. And I think he did form a foundation for 
the committee, the legacy of which is going to be well-served, 
I hope, by the decisions this subcommittee makes.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Thank you all for being here this morning.
    I was curious in following up Congressman Saxton's line of 
questioning. In the context of, when you mention metrics and 
the ability to be able to have a good accounting of the 
effectiveness of ISR, what is the difficulty in doing that? 
What has DOD said about their ability to provide that kind of 
information? Or is that kind of, I guess, accountability?
    Ms. Pickup. I think this is probably true in the case of 
any type of, you know, metric that you are trying to develop. 
It is always easier to develop the quantitative metrics, you 
know, the number of missions flown, number of targets, those 
kinds of things. With unmanned systems and from an intel 
perspective, you know, what is really important is the more 
qualitative type of metrics that actually tells you how well 
the mission performed by the ISR assets achieved the 
commander's objective, so to speak. And how the intelligence 
collected helped accomplish the mission.
    And while I think the department is further ahead on the 
quantitative piece, it is the qualitative piece that the 
strategic commands and the services and the combatant 
commanders are wrestling with right now. But it is exactly how 
to measure the impact on unmanned systems and other ISR assets.
    Mr. Reyes. Are you in a position, or did you offer any 
recommendations or solutions as to how we could do that or how 
they could do that?
    Ms. Pickup. As Ms. D'Agostino mentioned, we are in the 
process of, you know, compiling our preliminary observations 
and we are, you know, very much continuing to evaluate what 
progress has been made to date.
    Mr. Reyes. So your answer----
    Ms. Pickup. In terms of us recommending specific metrics, 
no, we have not recommended specific metrics.
    Mr. Reyes. Will you? You know, it is well and good to point 
out that there is a problem, but I think all of us on the 
committee would appreciate having the benefit of the research 
that you have done and the study that you have completed, what 
some potential recommendations might be. Will you be making 
those recommendations?
    Ms. Pickup. I think we could be in a position to describe, 
you know, some examples of the types of qualitative information 
you might need.
    Mr. Reyes. Is it that this issue, because of its complexity 
or maybe the technicality of benefit to utilization or whatever 
the formula is that you have looked at, is it one that is 
difficult to do or impossible to do? Where does it fit in that 
range?
    Ms. Pickup. I would say it is difficult. It is difficult to 
do because you don't always know the specific impact of a 
particular asset. And that you have a lot of capabilities 
brought to bear in terms of, you know, specific missions. So 
isolating the exact contribution of an individual asset can be 
difficult because you can't look at it in a vacuum.
    Mr. Reyes. I have had the opportunity to be in Iraq 7 times 
and Afghanistan 15 or so times. In fact, a couple of weeks ago 
I was in Afghanistan and actually got to see one of the 
operations by the Predator and carried out by special 
operations people. So I think a number of us have seen that and 
know and understand just how effective it is. That is why I 
find it difficult to understand why we can't provide a way of 
measuring the effectiveness.
    Ms. Pickup. Right. I mean, I think that what we have seen 
in our travels, so to speak, is a lot of anecdotes and, you 
know, some very specific examples of how the units felt that 
the Predator, for example, helped. But in terms of, you know, 
getting a broader trend analysis and those kinds of things, I 
just don't think that the department is there yet in terms of 
compiling on a more comprehensive basis some of that anecdotal 
information.
    Mr. Reyes. The only other question I was going to ask, 
because we are concerned with the numbers, is does the Air 
Force have sufficient Predators based on what you have seen to 
date.
    Ms. Pickup. We have not evaluated the specific, you know, 
basis for the Air Force's request. What I will say, and I will 
bring it back to the chairman's opening statement, is that we 
feel that there needs to be some more transparency in terms of 
all the services' funding requests in terms of how it relates 
to an investment strategy and strategic plan.
    And in terms of the supply-demand issue, which I think is 
what you are alluding to, is that we have seen information that 
suggests that the combatant commanders would like more assets, 
including Predator, to meet their needs, but I think we feel 
until they have a good mechanism for evaluating the 
performance, they can also show how all these different 
programs interrelate and, you know, including how they derive 
the numbers and, as I am sure Mr. Sullivan could talk about, 
how they have tried to get some synergy in their acquisition 
strategies. I think it is difficult to know exactly what the 
needs are.
    Mr. Abercrombie. Thank you.
    Ms. Pickup, before I go to Mr. Turner, I want to follow up 
a little bit on this. I appreciate what you are saying, and I 
appreciate your rectitude and I would say your usefully 
conservative attitude on this, particularly given the number of 
programs and all of the contingencies, if you will, associated 
with it.
    But we have to make decisions, and my request to you would 
be--this committee will be working--by the end of the month we 
have to make decisions, this subcommittee. The full committee 
will be making decisions the first full week in May. I would 
appreciate it if you will--I am not expecting you to do our 
thinking for us. That is not the issue. But if you could maybe 
put some midnight oil together, not that you don't probably 
already, but I am talking in terms of a request.
    Because, as you know, I and I think most members, if not 
all the members, of our committee, have great respect for your 
organization institutionally and great respect for the 
individuals that work in it.
    I think in response to my reaction to Mr. Reyes' questions, 
we need to have such recommendations as you think you can 
usefully make, because otherwise I guarantee you I am going to 
make recommendations, and I understand the difference 
legislatively speaking between arbitrary and capricious. We 
will not make capricious recommendations, but we will make 
arbitrary ones. That is to say, we will make decisions based on 
what we think somebody can show us or a benchmark we think 
needs to be met, and if it gets met--that is what supplementary 
budgets are for.
    If people can show that they can do something, then we can 
always add something in later, but we are going to make 
decisions here. The first lesson I learned as a legislator was 
people have wants and they have needs. I know what people want, 
but we are going to have to make decisions on what we think 
they need, and that is what is going to come out of this 
subcommittee, what we think people need.
    So if you could help us with that, I am not saying we are 
going to slavishly follow what you put forward, but if you can 
help give us a perspective as we move toward these arbitrary 
but necessary dates for ourselves, legislative dates that need 
to be met, we would be grateful.
    Mr. Turner, I took in your time, so I am going to be 
generous with it. I appreciate it.
    Mr. Turner. Thank you, Mr. Chairman. I appreciate you 
holding this hearing and your interest and sincerity on this 
topic. Clearly there is a tremendous amount of work that can be 
done.
    I want to thank the panel for the insight that they bring.
    In reading the GAO report, it is a great 101 lesson on 
dividing up the issues that we face here. You do a great job in 
describing the use, data, the gap, how are these things 
working. We need to get beyond just anecdotal evidence and that 
can be used not only for determining how they are deployed and 
how they are managed, but for developing legacy systems or even 
additional systems. Do we really know that what we have is 
doing what we believe it is and where are the gaps.
    Second, the topic that certainly Mr. Saxton spoke of, which 
is the management of these assets. Well, what happens--you 
know, who is in charge of them.
    And the third is the one that really interests me, is the 
issue of development of these assets. And I read on Page 17, as 
part of your report, which is a fascinating description of the 
development of the Warrior with the Predator being a legacy 
system. And I have a few questions that are not stated in this 
report and maybe the answers aren't as clear, so if you can't 
assist me in answers, I understand.
    But starting on Page 17, basically it states that the Air 
Force has the legacy system of the Predator, which has been 
operational since 1995; that the Army, in 2001, began to 
develop the Warrior system. And it states right here, ``The 
Army did not explore potential synergies and efficiencies with 
the Air Force program,'' which had been in existence before.
    The Army declared it an urgent need of the battlefield and 
they awarded a separate contract to the same contractor 
producing the Predator.
    Now, the Quadrennial Defense Review (QDR) indicates that we 
should consider all working together. And obviously this is a 
huge illustration or where we missed an opportunity to leverage 
our knowledge if we have people who are not working together, 
communicating together.
    And this footnote that you have here, ``The Army asserted 
that its need was urgent and it could not get sufficient report 
from Predator because of the systems limited assets.''
    And, jeez, it just seems odd to have a system, to declare 
that it has limited assets, then there be an urgent need, and 
for the answer be let us start from square one instead of start 
from square Predator, working with those who have knowledge and 
expertise in it.
    So I want to know, if you know, because it is not in the 
report, how did this come about? How is it that one branch of 
the military can just declare something as an urgent need and 
undertake its own program? Because I would liken it to, if we 
were sitting here in this hearing and we were looking at, you 
know, tanks or armed vehicles, and the Air Force declares that 
the Army's vehicles are not suitable for protecting its planes 
on the ramp and therefore they immediately undertook the 
development of their own tank system or armed vehicle system 
separate from any of the systems that the Air Force has.
    Can you explain to me, organizationally, how does that 
work?
    Mr. Sullivan. Yes, sir.
    In this situation, where we have--actually the Air Force 
has the Predator and then they have something else, kind of a 
variation on the Predator, called the Reaper as well, which is 
a bigger, stronger kind of a Predator.
    The Army identified needs, I think some needs that fit well 
with what the Predator could do, but they had obviously some 
unique needs to the Army, and began just as you stated and as 
we have in our statement, they began a separate program.
    Now I think currently that is still being arbitrated and 
eventually the Department of Defense and the acquisition 
technology and the logistics and Joint Staff and a bunch of 
other people have to weigh in on this.
    Right now, there is pressure on both the Air Force and the 
Army to look for synergies and combine that program to the 
extent that they can, and they are working on that. The 
progress with that has not been very good.
    Mr. Turner. Let me get back to the--is it because UAVs are 
relatively new that there is not a clear statement of who has 
responsibility and how these are to be managed?
    Because I would think that if we were sitting here talking 
about a tank, for example, and the Air Force suddenly decided 
to develop its own tank, we would have all expected the issue 
to be a little more clear.
    Is that the issue? Or is this something that each of the 
branches, regardless of the system, if they can justify, can 
move forward?
    Mr. Sullivan. I would say that this is a longstanding 
problem in the acquisition process that we have. It is not 
unique at all to UAVs.
    In fact, if there is a need for a tank, there might be 
another division within the Army that would say armor could do 
it or helicopters could do it, or that need or that threat 
could be met by many different things and those programs often 
times start up separately, all defeating the same threat. So I 
don't think it is unique to UAVs at all. It is the stovepipe 
nature of our services, I think. The parochialism, if you will.
    They all have their own tactics and doctrine for fighting 
wars and their own material needs. That is why a lot of the 
things--we touch on it in this written statement, but we have 
said it elsewhere. And in fact, the Department of Defense, in 
fact, in a report that they have recently issued, in February, 
I think, in response to Section 804 of last year's 
Authorization Act, they have a lot of initiatives going on 
right now to try to pull these types of problems that you just 
stated, where there are two different programs basically 
meeting the same need, up out of the stovepipes, if you will, 
look at it in a more functional, capability-based way, you 
know, that is what the requirements process is now supposed to 
do.
    That has been defined on paper, anyway, as joint 
capabilities, functional capability boards, looking at these 
things as opposed to the services. And then making decisions on 
what they call the big A, you know, big acquisition decisions, 
where you develop a portfolio of programs that are going to be 
the proper mix, so you are not building redundant programs.
    That should be done, I believe, by the Under Secretary of 
Defense for Acquisition and Technology getting together with 
the Joint Chiefs and the Comptroller, for that matter, so you 
can constrain it with resources as well, at a corporate level, 
if you will, so that the warfighters are not making these kind 
of parochial decisions.
    They are tying to do that right now with, you know, the 
Warrior-Predator situation is in flux. There is a lot of 
friction there now to try to get that to be more of a joint 
program, to try to get the synergies that, as you state, they 
should be able to get from something like that. But there is 
resistance.
    Mr. Turner. Mr. Chairman, I want to thank you, and them, 
because on Page 17 that distribution really does show how we 
have lost opportunities and lost hours.
    Mr. Sullivan. Yes, sir, I agree with you.
    Mr. Turner. So thank you for the manner in which you 
presented that.
    Mr. Abercrombie. Thank you, Mr. Turner.
    Representative Sestak.
    Mr. Sestak. Thank you.
    I just wanted to ask a question about the comment you made 
about stovepiping and how this is not unique. I mean, I think 
the services have wonderful ways they grow their officers in 
not a parochial way but a service-oriented way, or else you 
wouldn't get a great officer like Dave Deptula coming up 
through the services.
    On the other hand, I have been quite taken by the need to 
define requirements, understand what the right funding 
priorities are, and then to have the mechanism by which you can 
expect what you inspect, so to speak, and follow up.
    The challenge, it seems to me, is that we have moved into a 
word of jointness and the Joint Staff has set up a requirements 
mechanism. They do it in J8.
    But is it time we took it to the next step, the funding, 
which is the power in the joint world, for a truly a joint 
warfare area, global persistent surveillance--more the networks 
that permit that picture to be viewed by everyone?
    Mr. Sullivan. Yes, sir. In fact, we recently did a study 
looking at the commercial world to see how big enterprises, 
vast enterprises, far flung assets and resources, do their 
strategic planning, meet their needs, and what points and how 
well they constrain their needs by funding.
    And what we found is at the very beginning, way sooner than 
what we see in the Department of Defense, the funding and the 
requirement-setting processes, if you will, are integrated, and 
they are integrated at a very high level. There is usually a 
point of authority above the product lines or whatever 
eventually is going to execute the plan.
    We call that a best practice. We went to a number of 
companies and saw that.
    I would repeat that the Department of Defense understands 
that as well and is working on that. They have many 
initiatives. There really has been no results of this, but it 
is obvious that the department understands that in order to 
defeat the problems that they have had with the unhealthy 
competition that they get in programs that are under way, you 
know, because requirements--a program has to have environments 
better than the next one. The cost estimates are usually not 
very well-informed.
    Mr. Sestak. So, would you disagree that almost a Goldwater-
Nichols II is needed in the acquisitions, in the budget world, 
in certain programs?
    Mr. Sullivan. I think, in fact there is a report that the 
department has looked at closely in order to help in its 
transformation called beyond Goldwater-Nichols that was done by 
the Center for Strategic and International Studies (CSIS), I 
think, which has a lot of the ideas.
    Something that would take a look at those kinds of ideas 
and maybe go forward with them in terms of organizing our 
requirements and funding processes better, yes, sir.
    Mr. Sestak. My only question is, I think we have heard of 
this issue for years.
    Mr. Sullivan. Yes.
    Mr. Sestak. And it seems to me that the only thing that 
eventually resolves it is changing the process and the control 
of the dollars. So do you have any comments, either of you?
    Ms. D'Agostino. I think, following up on what Mr. Sullivan 
said, in terms of the ISR capability portfolio management test 
case that DOD has under way right now, this relatively new 
undertaking that they are doing that just began in September, 
they actually do have some experience with the fiscal year 2008 
budget, where they did look across services et cetera and the 
portfolio managers in this case was the ISR Integration Council 
led by Under Secretary of Defense for Intelligence, that 
basically they did recommend some rebalancing in the portfolio.
    And, again, while they weren't facing cuts and having to 
make very, very difficult recommendations, still we noted they 
had to elevate the disagreements with the services to the 
deputy secretary level because they do not have the authority 
to direct changes in the service plans, as I mentioned in the 
statement earlier.
    But it does show a step in the right direction and DOD 
still hasn't assessed, you know, where they stand on the test 
cases yet, and they may consider giving more authority to the 
portfolio managers down the road. But this is an example of 
them trying to get a handle on this, and I think they are 
seriously trying to do so.
    Mr. Abercrombie. Thank you.
    Ms. Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman.
    I want to thank you for calling this hearing today. I just 
find the whole concept of the UAVs and everything such a 
fascinating thing and I think as technology is progressing, our 
ability to integrate it into weaponry will make our military 
much stronger and lethal and I think it will keep our troops 
much safer.
    In fact, my husband was a fighter pilot in another life, 
and I have had this conversation with him, telling him that the 
glory days of the fighter jocks are over with all of this new 
technology.
    In fact, one of the aircraft that he flew in Iceland is now 
on display at the Dayton Air Museum, not to date him. But that 
is what is going to happen with some of these different 
aircrafts.
    Mr. Abercrombie. Was his argument back to you that at least 
in those days he knew who was in charge? [Laughter.]
    Mrs. Miller of Michigan. Like the astronauts, right? 
[Laughter.]
    At any rate, I think as we utilize the UAVs in theater, it 
is unfortunate that we are missing an opportunity not to have 
the proper measurements of some of the different things that 
are happening. I think your report is very, very interesting, 
sort of pointing out some of the disconnect, I suppose, of the 
different services and not sharing information perhaps as they 
could.
    But let me ask this question, and perhaps it is more 
appropriate for the next panel, but let me ask anyway. I think 
that UAVs have a huge role to play as off-the-shelf hardware, 
so to speak, in the Department of Homeland Security (DHS), for 
border security, both northern border security and southern 
border security. I mean, there has been a lot of talk in this 
Congress and some votes about putting a fence up in different 
places, and obviously we are not going to do that all around 
our country, nor do we want to.
    But having the UAVs integrated into the Department of 
Homeland Security as well is something I think is coming. And I 
am just wondering whether or not the GAO has done any studies 
about perhaps you be a conduit to make sure there is not a 
disconnect as the DHS begins to utilize those and integrate 
them into most probably the National Guard around the two 
borders.
    Do you have any comment on that?
    Ms. Pickup. Well, we do have some work looking at national 
airspace integration issues in terms of unmanned systems and, 
you know, obviously what you are alluding to, in a Katrina-like 
situation, there was a lot of discussion about whether we could 
use unmanned systems in the initial stages to get a good sense 
as to what, you know, what the situation was and the extent of 
the damage.
    And I can get you some specific information on the ongoing 
efforts that we have. But clearly it is----
    Mrs. Miller of Michigan. Well, I guess I just raised that 
point. We don't want the Department of Homeland Security to 
determine that they are going to go off on their own with 
something. We already, as I say, have off-the-shelf hardware 
that can be utilized for that.
    I mean, you can go across Death Valley and know that you 
have got to have a UAV if you are really going to patrol that 
as optimally as we would like to. Or you can go along the 
northern border, or even where I am, up in Michigan with a very 
long, liquid border, et cetera.
    I just think that the technology has huge applications for 
us from the Department of Homeland Security standpoint and 
maybe it is the next future add-on mission.
    Mr. Sullivan. I think in terms of acquisitions, I know that 
the Department of Homeland Security, specifically the Coast 
Guard, is tapped in pretty well to what the Department of 
Defense programs have to offer now and, you know, the Coast 
Guard's Deepwater project, for example, I think borrows as much 
as possible in terms of commercial items and off-the-shelf-type 
things.
    Ms. D'Agostino. One of the issues that comes up in the use 
of UAVs domestically is air-worthiness issues. And the Federal 
Aviation Administration (FAA) has, you know, raised some 
concerns, as well as I think there are a lot of seams that are 
still to be worked out in the airspace and air domain from a 
homeland perspective. And there is an air domain strategy being 
worked, I think, by the administration, to try to hammer out. 
There is a huge Homeland Security Presidential Directive 
(HSPD), that directs an air domain strategy, among other 
things.
    And I think that some of these problems and issues are 
being hashed out in that process.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you very much.
    Ms. Castor is next. Then she will be followed by Mr. 
Wilson, Mr. Marshall and then Mr. Bishop.
    Ms. Castor. Thank you, Mr. Chairman.
    Thank you to the panel very much.
    In your report, you detail the trouble that the DOD has had 
with identifying future capabilities. They seem to be so 
focused on what is happening now and the technological 
development, that it has been difficult for them to focus on 
where to go from here.
    Tell me, would you summarize what is happening, however, 
with identifying future capabilities? And where is that 
expressed? Is that an expressed authorization that has ever 
come from the Congress? Is it something that has been 
identified at the Joint Chiefs? Is there something in writing 
that makes that direction?
    Ms. D'Agostino. We talk a little bit about the ISR 
integration roadmap, where I think the Congress was trying to 
get to a common picture for the end-state envisioned for the 
ISR enterprise on the part of DOD.
    And I think the folks in DOD that we have met with are 
aware that that would be the desirable thing to have, so that 
when new requirements or new proposals come in for new systems, 
there is something to assess them against, to see to what 
extent they fit in, are they filling a gap or are they 
proposing a system in a capabilities area that we already have 
plenty of coverage in.
    And I think right now, without having that vision of end-
state and with some technological parameters tied to it, DOD 
doesn't have a very good strong basis to see how new proposals 
are going to fit into the vision of the future.
    I don't know if that helps you.
    Ms. Castor. Where did that express direction to develop the 
ISR roadmap originate?
    Ms. D'Agostino. It was the Congress in the National Defense 
Authorization Act of 2004.
    Ms. Castor. 2004. And no updating since that time?
    Ms. D'Agostino. They have updated the roadmap in January 
2007, and it was updated more to reflect the latest in the 
Quadrennial Defense Review and some additional updates. I would 
not say it takes a major leap from the previous version.
    Ms. Castor. And for updating of that roadmap, how do they 
seek the input of the combatant commands and the different 
services?
    Ms. D'Agostino. This roadmap actually catalogs all the 
systems in development and it is probably the only single place 
where you will find a handle, I would say a good handle, on all 
of the ISR capabilities, both existing and in development, as 
well as consideration toward the backend processing needs, 
which I think was expressed in some conference language in that 
same year by the committee's report.
    Ms. Castor. And, for example, you detail some of the input 
Central Command and ISR--could you explain to me how, for 
example, the Central Command has input into the ISR roadmap?
    Ms. Pickup. Into the roadmap? I mean, in terms of the 
allocation of existing assets, all the combatant commands, on a 
yearly basis put in what they think their needs are for the 
existing assets.
    In terms of the roadmap, it is done through the Joint 
Staff. It is also similar to, there is an unmanned systems 
roadmap and, you know, like a lot of things over at the 
department, it is a collective effort, so there are mechanisms 
set up to get the combatant commanders input, the services, the 
defense agencies, et cetera.
    Mr. Sullivan. I might add that under JSIDS, the 
requirements generation process, if you will, I think the 
combatant commanders, they have what they call the Integrated 
Priority List, that I believe is kind of an ongoing list of 
priorities that combatant commanders are seeing to counter 
threats that they encounter in the field. And that gets cranked 
into the requirement setting process, these functional 
capability boards.
    For example, battle space awareness as a functional 
capability board would be looking at those priorities coming 
in, sorting through them and trying to make a sensible, planned 
investment strategy for delivering those back to the combatant 
commanders. That is all done by the Joint Chiefs.
    Ms. Castor. Your comment is that they are so focused on the 
current capabilities and sorting out what is happening in the 
global environment today, it has been difficult for them to 
look ahead and make those kinds of strategic recommendations.
    Mr. Sullivan. The combatant commanders are focused--I may 
be speaking a little bit more than I know, however they are 
concerned with more the immediate threats. But the services 
have--Air Combat Command, for example, is a service component 
that can look at more future things and kind of step back and 
take a look at those global things. So they do have components 
that do that as well.
    Ms. Castor. Thank you very much.
    Mr. Marshall [presiding]. Thank you.
    The gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, actually, in lieu of a question, I just want to thank 
you for promoting UAVs and GAO, in working with the colleagues 
behind you, too.
    I have the perspective of being the parent of a son who 
served in Iraq. And I previously, thanks to Congressman 
Abercrombie and Congressman Curt Weldon, have been introduced 
to the capabilities of UAVs, and I had seen them in actual 
usage. And I know for my wife and I, we just felt like--because 
I told her all about it--that it was reassuring to know that 
overhead there was the extraordinary capabilities of 
reconnaissance and surveillance to protect our troops who are 
in harm's way.
    And I think it is particularly significant that in the 
overview we were provided--and I would like for the enemy to 
know this--the DOD indicates that the 3,400 small and 500 
tactical and theater-level UAVs accumulated over 160,000 flying 
hours in 2006 in Iraq and Afghanistan. This is up from 60,000 
hours in 2004. I want them to know that we have got very 
capable people who are monitoring their activities.
    Again, I just see this as protecting American troops, 
coalition troops, and I share the enthusiasm of Congresswoman 
Miller, that whatever we can do, and I indeed take seriously 
the comments by Chairman Abercrombie, that we want your input 
on what can be best done to promote UAV systems to protect 
American troops and additionally, obviously, for Homeland 
Security too.
    But, again, thank you for what you are doing. And that is 
the perspective of a very, very grateful parent. Thank you.
    I yield back to the chairman.
    Mr. Abercrombie [presiding]. Thank you very much, Mr. 
Wilson.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    I am going to move away from the Goldwater-Nichols II level 
of examining this issue and ask some questions more down in the 
weeds at the moment, sort of recognizing the realities of the 
circumstance that we seem to have facing us at the moment, 
though we would wish that we weren't where we are as far as 
jointness is concerned.
    There is a difference of opinion, between Air Force and 
Army, principally, concerning who ought to control what assets. 
And what I understand is that the language is also different. 
Army will talk about strategic versus tactical, tactical should 
be with individual divisions, those sorts of things, those 
capabilities. They should be inherent within the division, they 
should move with the division. The tactical capabilities should 
be with the division, when it is in the states, when it is 
getting ready to be deployed, when it is actually deployed.
    Air Force says that at the strategic level, Army doesn't 
necessarily have to have the asset imbedded within particular 
divisions.
    Air Force talks in terms of different altitudes. Below a 
certain altitude, 3,500 rings a bell with me, Army should go 
ahead and have its individual assets. At above 3,500, the 
medium- to high-altitude assets should all be in a joint 
command, probably Air Force. And what Air Force says is that 
this, the terms tactical and strategic really aren't very 
helpful, that these assets have capabilities and we ought to be 
focusing on what capabilities those assets can provide. And to 
say that one asset is a tactical asset versus a strategic asset 
just doesn't tell you anything.
    Could you help me with that difference of opinion between 
the Air Force and the Army and then offer your own individual 
opinions concerning whether we should, in a setting like Iraq, 
have a joint command or division-specific command of these 
aerial assets?
    Ms. Pickup. Well, I am not sure that I can help you sort 
out the different perspective of the services in terms of 
operational control, because I think you hit, you know, one of 
the things that is under discussion right now.
    From our perspective, sir, I think that regardless of who 
controls it, it is important that the air component commander 
has total visibility into the capabilities that are in theater, 
because under the auspices of the Joint Forces Commander, the 
air component commander, the ensign responsible for running the 
air operations, does in fact have the ability and the authority 
to kind of reach out and tap into those capabilities, 
regardless of whether they are embedded.
    Mr. Marshall. Ms. Pickup, earlier in your testimony you 
made reference to a division needing a particular asset and 
getting a Hunter or a Warrior on-sight, calling for a Predator 
and the Predator shows up. The air command commander doesn't 
really know how these assets are being used, and so there is 
duplication that is unnecessary and, consequently, perhaps a 
loss for us as far as efficiency is concerned.
    Let us assume that Army didn't have--let us assume that Air 
Force's vision of this is what is imposed and that Army has UAV 
assets that it employs below 3,500 feet that are specifically 
embedded in divisions, brigades, what have you. And Air Force, 
or some other joint command, is providing the other assets. How 
does the Army get hurt by that?
    The Army would say it won't work because they just won't 
listen to us about where we need things when we need them or 
what capabilities these things must have in order to meet our 
needs or there would be an interoperability problem?
    Ms. Pickup. There is a process by which it is determined 
how the Predator, for example, will be tasked during an ongoing 
operation, and an asset like that, that has kind of a theater-
level capability, its allocation, tasking, is based on the 
CENTCOM combatant command's priorities, for example, and those 
priorities, you know, in the case of a theater-level, might be 
a high-value target, high-value individual, where a unit may 
have, you know, troops in contact, clearing a building, may 
have a different priority.
    Mr. Marshall. So if I understand you correctly, the 
question here is whether or not the division commander should 
have the asset and be in charge of the asset with regard to an 
immediate tactical need or CENTCOM should be in a position to 
say no, sorry, we are going to continue to use this asset for a 
high-value target over here, and we understand that you want to 
have an asset, this need, but we are in charge and we are just 
going to have to use it for this other purpose.
    Is that really the dispute here?
    Ms. Pickup. I think it is. I think that demands, you know, 
often exceed supplies and there is a prioritization process 
that occurs, and it is not so much kind of Air Force versus 
Army but it is the broader issue of what the Joint Force 
commander on the ground and the theater commander from a 
combatant commander perspective thinks the priorities are.
    Mr. Marshall. Thank you.
    My time has expired. Mr. Chairman, thank you.
    Mr. Abercrombie. You still have some time. Do you want to 
follow up? I think you are doing an excellent job.
    Mr. Marshall. Actually, I find this very helpful for me. I 
didn't have the benefit of Curt Weldon's tutelage over all 
these years. I did, actually, in full committee listen to Curt 
time and again on different subjects, but not this particular 
subject. So it is helpful to me to hear your sense of this. And 
your sense of this is it is a who is in charge, and it is 
understandable.
    Shoot, if I were the division commander or brigade 
commander or what have you, I am going to want to have me in 
control of all the assets I think are useful to me in the event 
this happens or that happens, whereas CENTCOM might, say, 
understand that, hear that, but there are limited assets 
available and somebody else needs to be prioritizing how these 
assets are used than the guy who's stuck, in the weeds with a 
particular tactical problem. There needs to be a bigger vision 
here.
    And you see that as being the principal difference of 
opinion?
    Ms. Pickup. Right. And I think it also brings up the issue 
of what are the full range of capabilities, you know, what is 
the right asset to put on the problem, so to speak, and how do 
you optimize, you know, what exists over there, and how is that 
integrated, because----
    Mr. Marshall. Do you see any reason why Army can't work 
with Air Force or whoever else to come up with a requirements-
based process of acquisition and just have one acquisition, one 
sustainment, one support, all the efficiencies associated with 
just doing this through one agency as opposed to having two 
different agencies stovepiped, as we tend to be. Is there some 
reason why that cannot occur?
    And, consequently, Army is not going to get what it really 
needs if that is the process that is ultimately settled on.
    Mr. Sullivan? Ms. Pickup is looking at you. Help me out 
here.
    Mr. Abercrombie. Mr. Sullivan, your answer will be the last 
answer for this panel.
    Mr. Sullivan. Okay. I think we have examples of where we--
this is like the executive agent idea, I think, that the Air 
Force has floated that very idea and now with UAV. And it is 
something--I don't think we are ready to take a position on 
whether that is a good way to do it.
    You know, the work that we have done, and I think what the 
Department of Defense sees as a better way to do that, is to 
manage from requirements through to acquisition, you know, 
disciplining the process a little bit more. To be able to do 
that in a joint manner and to do it above the product lines, if 
you will, you know, do it for the warfighter. The services 
should execute a balanced portfolio of products that are 
decided upon by someone higher.
    That is kind of where--but I wouldn't--the proposals that 
are out right now on executive agents, I just don't know enough 
about.
    Mr. Marshall. Mr. Chairman, can I just make a quick short--
just to help Mr. Sullivan continue his response.
    What you just described, you know, getting at least at the 
joint level, whether it is this executive agent idea that I 
don't really know much about is the way to go or at a joint 
level, it is intended to accomplish the same objective here. 
Did it work where Warrior is concerned? Where immediate needs, 
little dispute I guess between Air Force and Army whether or 
not those needs can be met.
    And then as Mr. Turner was suggesting, Army just went off 
and got--what Air Force would view as comparable to Air Force 
going off and getting a tank, what is your view of that?
    Mr. Sullivan. Well, it doesn't work very well right now. It 
is a very sloppy process and there is a lot of underlying 
causes for that that would probably take a long time to kind of 
go through.
    They have it on paper, they understand it, but there is a 
lot of reasons why it is not working well now, though.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Abercrombie. Thanks, Mr. Marshall. That was really 
excellent.
    And I want to thank you folks. And, again, if it is 
possible for you to come up with some recommendations in this 
other context, that would be very, very helpful.
    The policy issue here is a separate one, and I take your 
word, Mr. Sullivan, in this last remark, as being a summary of 
the position of the other two as well. Is that correct?
    Ms. D'Agostino. Yes, sir.
    Mr. Abercrombie. Very good.
    And I thank you very, very much.
    Ms. D'Agostino. Thank you.
    Mr. Sullivan. Thank you, Mr. Chairman.
    Mr. Abercrombie. We will go right to our next panel. And 
while that panel is coming up--Mr. Landon, General Davis, 
General Deptula, General Sorenson, Admiral Clingan and General 
Alles--obviously that is six people. It is unwieldy, but we had 
to do it this way rather than split it on half.
    So how about you zero in on--it would take a half hour, if 
we stuck strictly to five minutes, just to get through opening 
statements, and I don't think that is useful to anybody.
    Some of the issues involved here are well-known to 
everybody on the panel, and I think you can see by the 
questions and the observations coming from the members it is 
well-known to them.
    So why don't we just take two minutes each and if you will 
zero in on your principal points. You don't need to explicate 
them. But if you think of the audience, if you will, that 
doesn't have a clue as to all the inside baseball involved 
here, all the antecedents.
    And I realize you are all involved in the military and are 
therefore unused to politics, I realize there are no politics 
in each of these services. But take my admonition as an old-
time politician, when you are explaining, you are losing. 
People have to understand what it is you are talking about. 
They don't have to know all the details, they don't have to 
have a deep background in it, but they have to understand what 
it is you are talking about, what you are trying to get at.
    So can I ask each of you to summarize in two minutes? Speak 
not to me. Speak to the average American out there who wants to 
know, okay, what is it that you are talking about, why is it 
important, what do you propose to do.
    Fair enough?
    Mr. Landon. It is a great start, sir.
    Mr. Abercrombie. Okay. I want to start with you, Mr. 
Landon.

  STATEMENT OF JOHN R. LANDON, DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE FOR COMMAND, CONTROL, COMMUNICATION, INTELLIGENCE, 
    SURVEILLANCE, RECONNAISSANCE AND INFORMATION TECHNOLOGY 
 ACQUISITION (C3ISR & IT ACQUISITION), OFFICE OF THE SECRETARY 
                           OF DEFENSE

    Mr. Landon. Thank you, sir.
    Good morning, Chairman Abercrombie and distinguished 
members of the subcommittee. I really want to thank you for 
this opportunity to testify before the Subcommittee on Air and 
Land Forces to address the Department of Defense's ISR programs 
and investments, particularly on unmanned vehicles.
    I have provided a written statement, and I have addressed 
the questions we received earlier.
    Mr. Abercrombie. All of the statements have been observed 
and are being analyzed and will be accepted for the record.
    Mr. Landon. Thank you, sir.
    My name is John Landon. I am the Deputy Assistant Secretary 
of Defense for Command, Control, Communications, Intelligence, 
Surveillance, Reconnaissance and Information Technology.
    Mr. Abercrombie. Your time is almost up already. 
[Laughter.]
    Mr. Landon. It is a long title.
    I wanted you to know I am here today representing Mr. Ken 
Krieg, who is the Under Secretary of Defense for Acquisition, 
Technology and Logistics.
    In my position, I provide acquisition oversight for the 
Office of Secretary of Defense (OSD) for major defense 
acquisition programs and major automated information system 
programs. I also support the undersecretary of defense for 
intelligence regarding the acquisition of ISR programs.
    You have already recognized the other witnesses today, so I 
will dispense with that.
    If I might briefly add, ISR systems are playing a major 
combat and support role in both Operation Iraqi Freedom (OIF) 
and Operation Enduring Freedom (OEF). These systems perform an 
ever-increasing role in a wide range of DOD----
    Mr. Abercrombie. Excuse me, Mr. Landon. I know that. Let's 
summarize what it is that you want me to know.
    Mr. Landon. Sir, let me make one point, and that is that 
these unmanned systems have essentially proven their value in 
combat, and they have effectively moved from what were largely 
concept and demonstration programs into an integral part of the 
department's force structure.
    We are making that transition as we go, and so that is 
really a key point as we move forward.
    And with that, sir, I am happy to take any of your 
questions and address anything you need.
    Mr. Abercrombie. Okay. I will give you another 20 seconds 
to tell us, do you have your command and control hierarchy 
established or not?
    Mr. Landon. Sir, I do believe so.
    Mr. Abercrombie. Okay. Thanks.
    Mr. Landon. We do, and we are working to improve it.
    [The prepared statement of Mr. Landon can be found in the 
Appendix on page 74.]
    Mr. Abercrombie. General Davis.

 STATEMENT OF BRIG. GEN. WALT DAVIS, COMMANDER, JOINT UNMANNED 
        AIRCRAFT SYSTEMS CENTER OF EXCELLENCE, U.S. ARMY

    General Davis. Good morning, Mr. Chairman. It is an honor 
to be here to represent the chairman of the Joint Chiefs of 
Staff and all those members.
    Mr. Abercrombie. Thank you.
    General Davis. And I appreciate the opportunity.
    I am the commander of the Joint Unmanned Aircraft Center of 
Excellence at Creech Air Force Base, which is an organization 
that was formed by the Joint Requirements Oversight Council 
direction in the summer of 2005. Along with the rechartering of 
an integrated process team, which became a material review 
board chaired by Brigadier General Steve Mundt, we work 
operational issues on behalf of the Joint Force and the joint 
staff. They review material issues on behalf of the Joint 
Force.
    Since that time, in the past 18 months we have grown our 
capacity, and you must know, I think I can best speak from an 
information-related to the most recent piece on executive 
agency will be the training aid for the joint staff and the 
Joint Requirements Oversight Council as we bring that issue 
forward for discussion for the joint staff, Joint Requirements 
Oversight Council and potentially the service chiefs in the 
tank.
    Again, sir, it is a privilege to be here.
    [The prepared statement of General Davis can be found in 
the Appendix on page 83.]
    Mr. Abercrombie. Thank you. I appreciate the way you are 
doing that, because we may also get hit with votes coming 
sooner than I thought, so we will want to move along as quickly 
as we can.
    General.

 STATEMENT OF LT. GEN. DAVID A. DEPTULA, DEPUTY CHIEF OF STAFF 
 FOR INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE, U.S. AIR 
                             FORCE

    General Deptula. Mr. Chairman, distinguished members of the 
committee, it really is an honor to be here as the Air Force's 
first Deputy Chief of Staff for Intelligence, Surveillance, and 
Reconnaissance.
    The Air Force is acutely aware of the significance of ISR 
to America's sons and daughters in the battle space as the Air 
Force has been engaged in combat and ISR combat support 
continuously for more than 16 years in Southwest Asia. At the 
same time, during that time, fighting and winning in Bosnia and 
Kosovo.
    Since September 11, 2001, we have been conducting ISR 
operations at an unprecedented pace. We have doubled your Air 
Force fleet of medium-altitude Predator Unmanned Aerial 
Vehicles from a planned program of record of 6 patrols in 2001 
to 12 combat patrols simultaneously today, and we will increase 
this capacity to 21 by 2010. That is a 350 percent increase in 
capability.
    Your Air Force high-altitude ISR aircraft, consisting of 
the manned U2 and the unmanned Global Hawk, are currently 
flying more than 90 missions a month in CENTCOM alone.
    For our RC135 rivet-joint aircraft, we continue investments 
in a proven baseline modernization strategy that provides 
recurring upgrades to stay ahead of advances in adversary 
communications.
    Now, the Air Force has continued its investment in network-
centric technologies that multiply these capabilities. A real 
success story is our distributed common grounds system, perhaps 
more descriptively called ISR exploitation centers. They are 
used to exploit data collected by our airborne sensors at 
locations in Hawaii, California, Virginia, Korea and Germany. 
Such reachback allows us to keep the bulk of our footprint at 
home while delivering effects and capabilities to anywhere on 
the globe. In other words, this system allows us to project 
capability without projecting vulnerability.
    As your expert in providing dominance of airspace and 
cyberspace, the Air Force is deeply committed to delivering 
premier air and space ISR capabilities in accordance with the 
priorities of the Joint Force Commanders. In that regard, the 
intent of the Air Force Chief of Staff's recent memo to the 
Deputy Secretary of Defense on medium- and high-altitude UAVs 
falls in three major categories.
    First, to seek to deliver the greatest possible UAV ISR to 
our soldiers, sailors, airmen and marines by optimizing medium- 
and high-altitude UAV use.
    Second, it aims to achieve efficiencies by unifying 
acquisition of these vehicles through an executive agent.
    And, third, it champions interoperability by synchronizing 
architectures, data links and radios for all UAVs operating 
above the coordinating altitude.
    [The prepared statement of General Deptula can be found in 
the Appendix on page 90.]
    Mr. Abercrombie. Thank you.
    General.

    STATEMENT OF MAJ. GEN. JEFFREY A. SORENSON, DEPUTY FOR 
  ACQUISITION AND SYSTEMS MANAGEMENT, OFFICE OF THE ASSISTANT 
     SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS AND 
                     TECHNOLOGY, U.S. ARMY

    General Sorenson. Good morning. Thank you, Chairman 
Abercrombie, Congressman Saxton and distinguished members of 
the Air and Land Forces Subcommittee.
    The United States Army, with nearly 280,000 soldiers on 
active duty in 80 countries is meeting the demands of the 
global war on terror, fulfilling other worldwide commitments 
and transforming to meet the challenges of an uncertain future.
    Army unmanned aerial systems are multimission systems whose 
primary purpose is to integrate, respond and support the 
tactical warfight at the division, brigade and battalion levels 
of employment. Currently, our unmanned airborne systems are 
Raven, Shadow and the extended-range multipurpose aircraft 
system.
    Unmanned aircraft system air tempo and op tempo has 
increased dramatically since 2001. In fact, we experienced a 
10-fold increase in usage and we have accelerated the fielding 
of the unmanned aerial systems to every brigade combat team who 
has now an organic Shadow platoon and we continue to rotate our 
Hunter systems while Warrior Alpha integrates with manned 
assets to provide lethal effects against IED placement and 
other particular targets.
    The hundreds of thousands of hours flown by these systems 
alleviate the demand for more expensive high-value platforms 
used at the theater and strategic levels.
    Our current manned airborne ISR systems include the 
Guardrail Common Sensor and Airborne Reconnaissance Low. This 
aging fleet is doing a superb job, however there are 
limitations that come with age and Air Low Common Sensor will 
replace these two workhorses beginning with the intelligence 
transformation of the 21st-century battle space.
    The Air Force recently requested executive agency for 
medium- and high-altitude aircraft unmanned systems. The Army, 
however, recommends that the Office of the Secretary of Defense 
uphold the 2005 JROC decision to use the Joint Unmanned 
Aircraft System Material Review Board and the Joint Unmanned 
Aerial Systems Center of Excellence in lieu of a single-service 
executive agent.
    Our airborne ISR goals remain unchanged, to provide our 
warfighters with the right sensor at the right place and the 
right time so they can conduct decisive operations on terms not 
the enemy's.
    Mr. Abercrombie. Thank you.
    General Sorenson. And again, I want to thank you for your 
support, and I look forward to your questions.
    [The prepared statement of General Sorenson can be found in 
the Appendix on page 108.]
    Mr. Abercrombie. Thank you.
    Those last two were excellent summaries. Thank you.
    Admiral.

STATEMENT OF REAR ADM. BRUCE W. CLINGAN, DEPUTY CHIEF OF NAVAL 
      OPERATIONS, DEPUTY DIRECTOR, AIR WARFARE, U.S. NAVY

    Admiral Clingan. Mr. Chairman, Congressman Saxton, 
distinguished members of the subcommittee, it is a pleasure to 
be here to testify with my colleagues.
    The Navy's unmanned aerial system initiatives are in four 
categories: small tactical, tactical, broad area and low 
observable penetrating systems that fill maritime capability 
gaps.
    I will forego any further comments to leave time for 
questions in this regard.
    [The prepared statement of Admiral Clingan can be found in 
the Appendix on page 125.]
    Mr. Abercrombie. Thank you.
    General.

STATEMENT OF BRIG. GEN. RANDOLPH D. ALLES, COMMANDING GENERAL, 
        MARINE CORPS WARFIGHTING LAB, U.S. MARINE CORPS

    General Alles. Thank you, sir.
    Chairman Abercrombie, Representative Saxton and 
distinguished members of the subcommittee, on behalf of our 
Marines forward deployed around the globe, thank you for the 
opportunity to appear here and discuss the Marine Corps 
intelligence, surveillance and reconnaissance enterprise.
    I would just like to emphasize, our ability to prevail in 
an often chaotic and unpredictable battlefield requires an 
increasing reliance on ISR capabilities. The ability of 
commanders to paint an accurate picture of the enemy is of the 
utmost importance. It drives battlefield decisions tempered by 
experience and training on how and when to employ marines, 
fires logistics and information.
    If leaders can orient themselves faster than the enemy, 
their decisions can be enacted in an offensive versus defensive 
manner, driving the campaign versus being driven. And our 
vision is to provide this kind of information down to the 
tactical level.
    I will just briefly mention, we organize our UAVs in a 
three-tiered system. Our Tier 1 systems are basically man-
packable, used at the company and sometimes battalion level. We 
are currently using the Dragon Eye unmanned system, 
transitioning to the Raven B, which is in use by the Army.
    Tier 2 systems is a coming program for us, used at 
divisions, regiments and battalion levels. And then Tier 3s are 
used at our force level. We are currently using the Pioneer 
UAV, transitioning to the Army's Shadow system in fiscal year 
2007.
    I think it is important to emphasize that for commanders to 
prevail, particularly in a counterinsurgency environment, he 
needs ISR and unmanned vehicle assets he can task and employ 
down to the squad level. Because of the need for this 
decentralized execution, the Marine Corps opposes the idea that 
any one service should control the procurement or employment of 
these valuable assets.
    That concludes my remarks, sir.
    [The prepared statement of General Alles can be found in 
the Appendix on page 135.]
    Mr. Abercrombie. Thank you very much.
    Mr. Saxton.
    Mr. Saxton. General Deptula and General Sorenson, I would 
like to move right to the heart of the matter and just ask you, 
we understand that there are some differences of opinion as to 
how we should move forward organizationally, and I thank you 
both for coming to my office in the last couple of days to 
discuss those matters, as I am sure you have with other 
members, including the chairman.
    But this morning, what I would like to ask you to do, would 
you both explain your position with regard to differences as to 
how you think we should move forward? And in conjunction with 
that, what do you see as the best path for us to take--not us, 
necessarily, here on this committee, but for our government to 
make a decision about how to best organize ourselves?
    General Deptula, would you like to begin?
    General Deptula. Yes, sir. First, thanks very much for the 
opportunity to address this issue.
    I think it would be instructive for all involved in the 
process to briefly review the American way of warfare, which 
summarized briefly, essentially boils down to this. Each of the 
individual services do not fight our wars. We have our 
combatant commands, headed up by a Joint Force commander, who 
takes the capabilities that each one of the services are 
responsible for developing and then uses them in an appropriate 
mix and fashion to accomplish his or her objectives, given a 
particular contingency.
    So each one of the services are unique and have expertise 
in their core competencies. That is the subject of roles and 
missions. And it works very well when the Joint Force commander 
can reach out and combine those capabilities to achieve a 
particular outcome.
    On this particular subject, with respect to medium- and 
high-altitude UAVs, there are a couple of pieces. There is the 
efficiency piece that involves combining, as was mentioned 
earlier by one of the members, the numerous efforts that go on 
to procure and develop a system and address how we can achieve 
efficiencies by combining that multiple duplication of effort.
    The issue of operational employment is one that I believe 
can best be described not by using terms associating aircraft 
as tactical, operational or strategic, but looking at how they 
are used. Operational, strategic and tactical are terms that I 
believe describe effect. An airplane is an airplane, an 
aircraft is an aircraft.
    In the case of medium- and high-altitude UAVs, those are 
assets that can move around the theater, and what we would like 
to do is see them employed to their best extent possible to 
maximize that ISR delivery of information to users on the 
ground by putting them wherever they are needed most in 
accordance with the Joint Force commander's priorities, and not 
tying them to a local position associated with a particular 
unit.
    We believe that UAVs that have a local effect and can 
operate and provide information to units on the ground within 
tens of miles and operate below coordination altitude in the 
theater should be the purview of individual units and 
organically operated.
    So there are two principle elements here, an efficiencies 
argument with respect to procurement of these vehicles and an 
operations and employment argument, where we are seeking to 
maximize their utility. There are no Air Force targets in 
combatant command. They are Joint Force targets. And what we 
want to do is optimize the ability of the Joint Force commander 
to use the capability of these resources, and in the medium-to-
high-altitude environment, they are low-density assets, so we 
need to prioritize them.
    I think in closing our description, it is useful to 
consider an analogy. Consider a city block, a city consisting 
of 50 blocks. The mayor owns five fire trucks. The difference 
in perspective here is one where those who believe in organic 
assignment, would assign each of those five fire trucks to a 
city block. The perspective in using the assets in accordance 
with the Joint Force commander's priorities across the entire 
theater would allocate those five fire trucks to the mayor, and 
the mayor would distribute them to whatever block needed them 
the most.
    Thanks very much, sir.
    Mr. Saxton. General Sorenson.
    General Sorenson. Yes, Congressman Saxton.
    I guess in some cases I would agree with my counterpart, 
General Deptula, here, with respect to it is the Joint Force 
that is essentially--we are supporting the Joint Force in 
providing these assets.
    However, at the tactical level this becomes a matter of 
risk, time and consequence for those that are currently in 
harm's way. I think in many cases the issue becomes, and I 
think we have videos to kind of come back and express this in 
more detail, it is an issue with respect to being able to 
respond quickly and decisively at the tactical level to in many 
cases support the tactical commander.
    Now, the tactical commander, in many cases, has the command 
and control and is responsible for integrating these assets as 
well as to do the teaming of the man and unmanned systems in 
order to essentially respond on quick high-value targets that, 
quite frankly, just manifest themselves in moments of time.
    I think in many cases as we talk to how we do this, as I 
mentioned in my oral statement, I do believe we ought to go 
back to have the JROC essentially evaluate this. This is the 
only position. Quite frankly, we do find that the Material 
Review Board as well as the Center of Excellence is doing a 
good job with responding to what types of assets meet those 
requirements and what should be those acquisition strategies.
    I would also point out that even in today's environment, at 
the brigade level, we are right now flying about 530 hours 
provided to a brigade combat team on a daily basis. At the 
division level, we have got about another 64 hours provided by 
our Shadow and ERMP. And then you get to the Predator level, we 
get about 10 or 20 hours.
    So for that commander on the division level, he is 
essentially getting the majority of his ISR requirements filled 
by tactical assets that are available to him when he needs it 
to supply the required capability.
    And, last, I would also like to say with respect to 
efficiencies, though it was discussed earlier, when we 
basically awarded the Warrior ERMP capability in fiscal year 
2005, it was a competitive award based upon a joint 
requirement. And in making that competitive award, we were able 
to bring down from the standpoint of the Predator the price by 
about 10 percent and increase performance by about 40 percent 
because it had about 20 percent more endurance and 50 percent 
more increased capability in terms of payload.
    So the competitive forces are being used and I think we are 
trying to work again with the Air Force to do this more 
efficiently.
    Mr. Saxton. Thank you very much.
    Mr. Abercrombie. Thank you.
    Ms. Giffords hasn't had a chance to ask a question yet, so 
I am going to go to her next. And then we will go back on 
schedule. Is that okay with everybody?
    Ms. Giffords. Thank you, Mr. Chairman.
    My question is for Secretary Landon.
    We have already heard the discussion that the Air Force is 
proposing to take control as executive agent for all DOD UAVs 
above 3,500 feet. The Air Force asserts this would generate 
cost savings. At the same time, the Army believes that there is 
tactical risk associated with severing the direct connection 
between the ground commander and tactical ISR assets at 
altitudes above 3,500 feet.
    Has there been an independent analysis demonstrating there 
would be a cost savings or evaluating whether savings, if any, 
would justify the additional tactical risks to deploying Army 
forces that would result?
    Mr. Landon. Let me see if I can take that on. There are a 
couple of questions there.
    One is the issue of the analysis that will go on. The Chief 
of Staff of the Air Force essentially made this proposal to the 
Deputy Secretary. The Deputy received that. Subsequently, the 
Vice Chairman of the Joint Chiefs has responded to the Deputy 
Secretary, on the 4th of April as a matter of fact, and said he 
would like to take this issue to the JROC, the Joint 
Requirements Oversight Committee, to address the issue and to 
flesh it out.
    As you know, we reviewed this same issue and proposal in 
2005. A decision was made and that resulted in, frankly, the 
Joint Unmanned Center of Excellence. That was stood up and is 
now led by General Davis.
    This is a significant issue and I think in order to get to 
the analysis that we need in order to make an informed 
decision, we are going to take a little time here to go through 
that. And so I can tell you this: the Deputy Secretary is aware 
of this issue. The Chairman of the Joint Chiefs is aware of 
this issue, if you have seen his comment in the paper this 
morning. And so this issue is going to be brought forward 
rapidly and debated. But we need to ensure that we have all of 
those.
    Now, as far as the risk----
    Mr. Abercrombie. Excuse me, Mr. Secretary. For clarity's 
sake, because the question is a good one, aren't you 
reinventing the wheel again? General Davis is sitting right 
next to you. Isn't his organization the result of--you have 
already considered this, the JROC. Do you mean you are going to 
do it all over again?
    You know, this didn't come up April 4th.
    Mr. Landon. Yes, sir.
    Mr. Abercrombie. I mean, General Davis, do I have that 
right? I mean, organizationally, you are the result of what 
this previous round of consideration was. Now we are going to 
do it all over again?
    General Davis. Sir, if I could, again, you are right. I 
think the one difference, though, now is that quite frankly, in 
the spring of 2005, when the issue was raised for single-
service executive agency, a joint team was put together 
composed of all of the services and other elements of the joint 
staff.
    I don't suspect, at least from my view, coming in in August 
of 2005, to have to go back to the Vice Chairman to recommend 
an initial operational capability date and organizational 
structure, that kind of thing, how much money we needed, I 
don't think as much analysis was put into actually determining 
what executive agency really meant.
    And so as I stated in my brief opening comments, sir, that 
is our job now, as a joint staff entity. I work for the Joint 
Staff J8, Vice Admiral Stanley. Our organization is equipped to 
lay out this issue with respect to really defining per the Air 
Force's--what their intent is on executive agency, teeing that 
up for discussion and making sure that we do it deliberately 
and we have the input of the combatant commanders and the 
services so the discussion can take place at different levels 
in the system.
    So while, yes, we were created as well as a rechartering of 
a material-focused board, again, that will be our job in this 
case.
    General Deptula. Mr. Chairman, could I make a comment on 
that?
    Mr. Abercrombie. Yes, then we will go back to Ms. Giffords. 
I hope you don't mind me interrupting, but I didn't want you to 
get misled that this is something that is just getting started 
now. It has already been ongoing.
    If you would direct to Ms. Giffords, and then we will go 
back to her.
    General Deptula. Just with respect to the Joint UAS Center 
of Excellence and the Joint UAS Material Review Board, it might 
be instructive to hear what the GAO has to say about those two 
organizations in their recent report on unmanned aircraft 
systems, when it stated, ``None of the entities are chartered 
with the authority to direct military services to adopt any of 
their suggestions.''
    Mr. Abercrombie. I understand that. It has been a year and 
a half now, and this has got to get done.
    General Deptula. Yes, sir.
    Ms. Giffords. Mr. Chairman, just a follow-up question for 
Secretary Landon.
    Is the DOD prepared to make the Air Force the executive 
agency for UAVs flying above 3,500 feet in the absence of 
really having the analysis both from the cost standpoint and 
the tactical standpoint?
    Mr. Landon. Yes, ma'am. I don't think the department is 
ready to make a recommendation at this time, until we 
understand what the pertinent facts are that are brought 
forward by all of the services and the combatant commanders.
    And I think that is absolutely critical to this discussion. 
We need to understand the dynamics, the items that have changed 
since the previous decision, and all of the consequences that 
will result as part of this decision. It is a very large 
decision.
    Ms. Giffords. Thank you, Mr. Chairman.
    Mr. Abercrombie. Is that okay? All right, good.
    Mr. Turner, thank you for your patience.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Abercrombie. We are trying to run this as a co-op here.
    Mr. Turner. With the last questions that were asked, I just 
want to make sure that there is not any confusion, with Ms. 
Giffords' statements.
    The GAO and the information that we have from the first 
panel made an excellent delineation of the different categories 
we are talking about. You know, the management of these as an 
asset in theater versus the issue of development, research and 
development, and also looking at this from their perspective of 
how that is divided, it is very different than trying to mesh 
it altogether and say who is--if you look at research and 
development and give us someone that you are losing control on 
the combat level, those are completely different concepts, and 
it is very clear in the GAO report.
    On Page 17 of the GAO report, and I said this when we had 
the first panel, it is very disturbing when you read it, 
because it clearly says that the Air Force has the Predator, 
they are working with other branches, and then the Army comes 
along and decides that they want to have Warrior. They don't 
work with the Air Force, they undertake development of it. They 
don't look to the potential synergies and efficiencies in the 
Air Force program, even though the Warrior is a legacy system 
to the Predator. They don't leverage the knowledge that is 
inherent in our DOD. And then they turn and award a contract, 
which is a separate development contract, to the same 
contractor producing the Predator. And now, January 2006, we 
are having a recommendation to consider the Army and the Air 
Force work together.
    During the first panel, obviously, my suggestion was, gee, 
how would the Army feel if the Air Force undertook development 
of a tank, because we are not talking about that you guys woke 
up one day and said I think it would be good for us to have 
something completely different than what is currently there. 
You started with the Predator. And according to the GAO report, 
you didn't talk to the Air Force. Apparently, you currently 
still aren't talking to the Air Force in any meaningful way.
    What do we lose? Do we lose a parochial battle between the 
Air Force and the Army? No. We lose technology. We lost 
efficiency. And we lose effectiveness at DOD that we are all 
paying for and we are all working for.
    And Page 17 of the GAO report clearly sets it out that that 
is how we get in this situation that we are in, of people 
perhaps not playing well together.
    And I have got to ask you, in looking at this plan, my 
first thoughts are, General Sorenson, when General Moseley was 
here, he testified that approximately 7,500 airmen are 
currently performing Army missions. These airmen are very 
willing to assist the Army and are proud to serve alongside 
their fellow servicemen. They are airmen that are performing 
Army jobs.
    Can you tell me how many people and assets the Army 
currently has in development of UAVs?
    General Sorenson. How many people we have in development? 
Or how many systems we have in our inventory?
    Mr. Turner. How many people do you have in development of 
UAVs?
    General Sorenson. I am not sure I can tell you exactly how 
many people we have working in the development. I can tell you 
right now the Army has about 300 Ravens, we have 19 different 
Shadow systems and 5, at this point in time, Warriors fielded.
    With respect to the people that are working on----
    Mr. Turner. General, excuse me. My interest in my question 
was on development, correlating it to the fact that we 
currently have the Air Force being drawn upon to fill Army 
positions that the Army is not able to fill. And we have the 
issue of UAV development and a GAO report that clearly says the 
Army undertook development of the UAV when the Air Force had a 
current and legacy system and is not, according to the GAO 
report--it is not my conclusion, but theirs, having reviewed 
the situation, that the Army is not working with the Air Force 
on this.
    General Sorenson. Okay. I can summarize this in about 20 
seconds.
    First of all, the Predator was an ACTD. It was awarded. It 
was awarded some years ago. The Army went back and looked at 
the requirements that it needed in terms of combat operations. 
It went through the JROC process. The JROC approved the 
requirement in 2005. The Army then did a competitive award, as 
I mentioned before. The competitive award is now awarded a 
capability that is 10 percent cost--costs 10 percent less than 
the Predator and is 40 percent more capable.
    It provides additional 20 percent endurance and 50 percent 
more in payload. So I think the competitive process works and, 
quite frankly, Army got a better deal.
    Mr. Turner. General, is there anything that the Air Force 
knows about UAVs that the Army doesn't that would have been 
helpful or would be helpful in the future as the Army looks to 
its UAVs?
    General Sorenson. Absolutely.
    Mr. Turner. Well, I think the GAO report clearly says that 
what needs to happen, and I appreciate the chairman's focus on 
this, what we now know is we are not having the type of 
collaboration and cooperation that is needed. Would you agree 
to that?
    General Sorenson. Not necessarily, no.
    Mr. Turner. Well, so you disagree with the GAO report that 
says--and I must say it is hard to read this report and not 
conclude that it is the Army that is not working with everyone 
else. So you would disagree with this report's conclusion that 
there is not the type of cooperation that is needed in order to 
maximize our assets and resources?
    General Sorenson. I would say there is cooperation and I 
would say I would disagree with that report.
    Mr. Turner. Mr. Chairman, I think that is very interesting.
    I am glad, General, that you concluded that for us.
    Mr. Abercrombie. Are you satisfied, not necessarily with 
the answer, but satisfied that you have pursued it in the 
direction you wanted to go? Because I am happy with the way 
this is going.
    Mr. Turner. Well, then, if you would provide me with just 
some additional time.
    Mr. Abercrombie. I will.
    I am going to go to Mr. Marshall--Ms. Castor passes, so we 
will go to Mr. Marshall and how about Mr. Wilson and Mr. 
Bishop? Would you like to go back to Mr. Turner, then?
    Mr. Bishop?
    Okay. We will go to Mr. Marshall and then come back to Mr. 
Turner.
    Mr. Marshall. I am going to pick up where Mr. Turner left 
off and continue with the same line of questioning.
    Again, I am going to sort of stay in the weeds so that I 
can better understand where this dispute actually lies.
    But on the substantive level as opposed to just the 
parochial we want to be in charge kind of stuff, and I have 
already heard the Army and Marines say that they oppose this 
executive agency concept. Is Navy against it?
    Admiral Clingan. We are strongly opposed to the executive 
agency.
    Mr. Marshall. And I take it that the reason you are opposed 
to the executive agency concept is that Air Force as proposed 
now would be the executive agent and you are worried that 
somehow substantively you are not going to get what you need. 
So real quickly, what is it under that concept that 
substantively you won't get that you need because of--and 
quickly, what reason, why is it that you won't get what you 
need? And if all three of you could go ahead and just tell us 
that.
    Admiral Clingan. Quickly and to your very specific point, 
Congressman.
    The integration of unmanned aerial vehicles into combat 
operations today underpins the effectiveness of the maneuver 
units and the risk associated with accomplishing their assigned 
effects.
    To the point, it would be like a ship requesting, ``May I 
have a radar system tomorrow to accomplish my mission? May I 
have a set of binoculars tomorrow to accomplish my mission?'' 
And hoping that it was allocated to you.
    Mr. Marshall. If Air Force were the executive agent and 
agreed that that substantive--well, let us say DOD generally 
agrees that substantive problem exists, if these assets just 
need to be delivered with regard to the need of a particular 
ship. And Air Force couldn't provide Navy with that day-to-day 
capability? Like, okay, it is on the ship and you have got it, 
it is yours.
    Admiral Clingan. It is so integral to mission 
accomplishment, that it would be habitually associated.
    Mr. Marshall. So, when you have got those kinds of things 
that you need to have habitually associated with the particular 
asset, what you are suggesting is that that should just be--the 
Navy should just figure that out, right? And then as part of 
that asset, you acquire that capability and it stays with that 
asset.
    Admiral Clingan. Not exactly, sir.
    In the acquisition process that we use, the Joint 
Requirement Oversights Council and its associated processes, 
when a service comes forward with a required capability, it is 
vetted thoroughly to make sure that it isn't available in 
another service. When there is an identified capability gap, 
the service goes forward to acquire it.
    Mr. Marshall. Okay.
    General Deptula, you are familiar with all of these 
arguments, as I am not. You have just heard the Navy, and I 
assume that Army and Marines, you guys agree that that is one 
principle problem associated with the executive agent concept.
    So, General Deptula, how do you respond, for our benefit?
    General Deptula. Yes, sir.
    I believe my good colleague is confusing the economic 
efficiencies that would accrue to the standup of an executive 
agent to assure that we unify acquisition of systems and the 
execution of operational capability, which is resident in our 
joint way of warfare.
    So what the Air Force is suggesting the Department of 
Defense do is stand up an EA to achieve efficiencies in terms 
of consolidating different acquisition authorities and 
everything that goes along with procuring systems.
    Mr. Marshall. I don't mean to interrupt. Navy says it needs 
this requirement met with regard to this particular asset. You 
are suggesting that Navy should go to Air Force, or to this 
executive agent, which would be the Air Force, and say this is 
ISR kind of stuff, UAV stuff, and what we need is this. Will 
you get it for us and give it to us?
    General Deptula. No, sir.
    If the Navy elects, for example, the decision has not been 
made, but if they elect to procure or select Global Hawk to 
satisfy their requirement, the Air Force is already procuring 
Global Hawks, and instead of the Navy going out and acquiring 
those systems and the Air Force going out and acquiring those 
systems is that we do it in a unified fashion. Now, clearly 
there are going to be different requirements. And the Joint UAV 
Center of Excellence, the Joint Material Board, would be those 
boards to----
    Mr. Marshall. General Deptula's vision, Admiral, won't work 
for what reason?
    Admiral Clingan. In specific, he brings up a great example. 
Through the JROC process, we have the capability gap that 
wasn't met by Global Hawk. We embarked on a competitive 
program. Interestingly, Global Hawk, Predator and Gulf Stream 
550, for example, are among the likely competitors for this.
    As we look to achieve initial operating capability in 2014 
for that system, we wanted to make sure that as soon as those 
UAVs arrived, that they would be immediately effective. So we 
have a maritime demonstration program, a Global Hawk maritime 
demonstration program, to develop concepts of operations, 
tactics, techniques and procedures and the integration and 
taking process we will use. And in employing the Global Hawk in 
that role, we identified that it in fact did not meet our 
requirements.
    So we took the Global Hawk solution, it is being used as a 
risk reduction, but we have identified clearly that it does not 
meet our requirements. As an example----
    Mr. Marshall. Mr. Chairman, if you would let me continue 
just for a second, or do you want to--and all I want to do is 
go back to General Deptula.
    You have heard the response from Navy. It would help me if 
you are in a position to say, wait a minute, in fact Air Force 
could have solved this issue for Navy. With Air Force acting as 
executive agents, would there be some seamless result here, 
that it would be as if the Air Force were a part of the Navy 
trying to figure out this problem in an appropriate way.
    General Deptula. Yes, sir. That is the intent.
    Now, I would tell you that we want to work together with 
the other services to define how these efficiencies would be 
gained in determining just what the roles and responsibilities 
of the executive agent would be.
    There is a lot of consternation with the use of the term. 
You can call it cheese as far as I am concerned. The issue is 
trying to get to savings by avoiding duplication of program 
offices, duplication in independent training ops, duplication 
of logistics and maintenance ops, duplication of independent 
intelligence support facilities and multiple procurement 
offices. That is the intent.
    Mr. Marshall. What I hear is the other branches saying that 
all sounds fine, and it is desirable, but the effect 
substantively for us will be we won't get what we need when we 
need it.
    General Deptula. That, sir, is a issue----
    Mr. Marshall. That is the way the system works. We won't 
get from the Air Force what we need when we need it.
    General Deptula. But, sir, that is not an Air Force issue. 
That is an issue of the Joint Force Commander determining the 
priorities of the theater assets that are assigned to that 
command.
    General Sorenson. Mr. Marshall, if I could, just as one 
response.
    You know, we talk about this, but quite frankly the systems 
that we have currently operating, the Raven, the Shadow, these 
already are joint systems that are used by my counterparts over 
here right now. So we do have consolidation. We are looking at 
this in a joint manner.
    And I would say as well, where the Army has gone--it is 
interesting to have the air platform flying around. It is more 
important to have a common ground station. Right now, the 
common ground station works with the Shadow, works with the 
Hunter, works with all these other systems, so I don't have a 
duplicative, if you will, delivery of terminals at the bottom 
end in terms of where the warfighters are, such that I would 
have to have constant streams.
    These guys sit in one terminal and it is just like watching 
NFL football. I can get that screen, that screen and that 
screen. That is what they want, a common terminal at the end, 
not all these systems flying around with independent satellite 
video responses that they have to look at. So, quite frankly, 
that is what we are hearing from the unified commanders and the 
battle commanders out in the field.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Abercrombie. Mr. Turner? We have a 15-minute in 5, so 
we have probably 10 minutes.
    Mr. Turner. I will be quick.
    Mr. Abercrombie. That is all right.
    Mr. Turner. I don't want to end with Mr. Marshall's 
statement, no matter how much I admire Mr. Marshall.
    The conclusion that he stated is not exactly the conclusion 
that I think is inevitable from what we have heard from the 
Army and the Navy. It is not, oh, you just can't get it from 
the Air Force or you can't get it fast enough.
    What I hear is an organization, the Air Force, that has 
ingenuity and has inventiveness and has delivered a product, 
and I see two other military branches that, upon looking at 
that, said, well, you know, it is something that there should 
be a legacy to, that we can grow upon, and then instead of 
working with the inventor and the people, because we are not 
just talking about an organization itself, we are talking about 
people also who have the knowledge, the inventiveness, the 
ingenuity, said, ``Well, you know what, I think I want 
something different, maybe more, maybe less, maybe something 
different than what I have got. And instead of going to the 
people who brought me the first, I am going to go start my 
own'' and use, as an example, the fact that it is old.
    It is like me going to a car dealer and saying, ``Okay, I 
bought a car from you five years ago, but now this car doesn't 
have all the bells and whistles that I want. Instead of talking 
to you about what else you might have and what you think might 
be an improvement on this car, I will go develop my own.''
    And if we encourage that type of development, the Air Force 
is going to have tanks. This is not the type of cooperation 
that we need.
    And the thing that bothers me the most about it, because on 
the issue of research and development and technology, what 
bothers me the most is that you miss the opportunity for those 
who have worked on these systems before to develop the next 
generation of what is important and what they have seen.
    We know that almost every weapons system that is delivered, 
you could probably ask the person on the day it was delivered, 
who was shepherding it through, what do you know that this 
doesn't do and what would be the next thing that you would have 
this do? Well, if you don't involve those people, you miss 
that. And if you start all over again, we have a missed 
opportunity and over-investment.
    And General Sorenson, I ask you, and I would like you to 
provide to me since you don't know right now, the total number 
of the individuals that the Army has and, Admiral, I would like 
it from you also, on the Navy, on development and research on 
UAVs, because I am going to get back to the fact that I know 
that when the Army was falling short on being able to man its 
own missions, it turned to the Air Force. And the Air Force, as 
General Moseley said, delivered 7,500 people.
    Meanwhile, we are missing the opportunity for cost savings.
    Now, here is the next question that I have for you, 
gentlemen, and I would like all three of you to answer. And I 
am going to start with General Deptula.
    If we did look to the efficiencies--I do believe we have 
duplication of effort. Is it possible that the duplication of 
effort that is occurring could be utilized for us to be able to 
acquire more of these resources? Every one of you say that we 
need more of these resources, and it sounds like the resources 
that we are spending more on is development and research.
    General Deptula, is it possible that we could actually 
acquire more of these if we got rid of--had some efficiencies?
    Mr. Abercrombie. General, before you answer, the question 
is asked to the three of you, and I would like also General 
Alles to answer as well, I would like you to put it in writing. 
You can give a verbal answer now, a couple of sentences, but I 
would like the question on duplication of effort to put in 
writing, addressed to me and I will distribute it. Is that all 
right?
    [The information referred to can be found in the Appendix 
beginning on page 145.]
    Mr. Turner. Thank you, Mr. Chairman. I greatly appreciate 
it.
    Mr. Abercrombie. General, your view on duplication of 
effort. You can summarize it now, but I would like your full 
answer in writing to the committee.
    General Deptula. Yes, sir. Rapid answer is yes. We believe 
that there are significant efficiencies that can be gained by 
the consolidation and reducing the duplication of effort that 
goes into multiple services acquiring medium- and high-altitude 
UAVs.
    What is done with that savings is above my pay grade. I 
mean, that would be determined by the department. But savings 
could accrue, and one of the options would be the procurement 
of additional UAV systems.
    Mr. Abercrombie. Thank you.
    General Sorenson. Yes, Mr. Chairman and Congressman, I 
would go back to what I said before. We did look at the 
Predator when the Army came back with its needs. However, the 
needs which we the Army had could not be met by----
    Mr. Turner. General, you know that is not the question. The 
question is----
    General Sorenson. I am getting to the duplication. I am 
getting to the duplication.
    We did look at it. It could not meet the requirements. As a 
result, we went on a competitive procurement. That competitive 
procurement resulted in something that was----
    Mr. Turner [continuing]. General, I understand what you 
followed. What you didn't do is get up and go ask the Air 
Force.
    What I asked you was, is the duplication--are there 
duplications between the three of you that could result, if 
they were eliminated, in efficiencies that could deliver more 
product for DOD?
    General Sorenson. There could be, yes.
    Mr. Turner. Thank you.
    Admiral.
    Admiral Clingan. Congressman, the collaboration and sharing 
that actually occurs beyond the Center of Excellence and the 
Acquisition Board or Material Board process extends the 
technology maturation and a variety of other efforts so that 
duplication is perhaps not as substantial as might have been 
conveyed to this point.
    There is always room for efficiencies. I might build on the 
example previous, where if in fact the material solution, the 
contract is awarded to Global Hawk, or if the selection is 
Global Hawk, it is likely, as we have done in helicopters and 
other systems, that we would use the Air Force contract as an 
example of reduced duplication.
    Mr. Turner. Admiral, are you saying that you don't believe 
there are efficiencies that could be achieved that could result 
in purchasing more product? You either agree or disagree with 
that statement, that if we looked between the three of you and 
found efficiencies, of which I believe there is duplication--I 
mean, if you don't believe there is duplication, say there is 
not duplication. But my question is, do you believe there is 
duplication that, once eliminated, could result in delivering 
more product?
    Admiral Clingan. There is undoubtedly duplication to a 
limited extent. And, therefore, more product could be bought of 
some type.
    But whether it is unhealthy or extraordinary is an issue 
that ought to be quantified.
    Admiral Clingan. Thank you, sir. I appreciate your answer.
    Mr. Abercrombie. General, you are going to have the final 
word, I am sorry, because we are going to bring the hearing to 
a conclusion with our thanks.
    General Alles. Thank you, sir.
    My reply would be this, sir, the Marine Corps routinely 
buys the other services systems. So from the standpoint of 
duplication, I don't see that as a huge issue for our service. 
I mean, you have seen that with both our Tier 1 and our Tier 3 
UAVs by the Army or the joint solution.
    But I would just mention that efficiency does not imply 
effectiveness, and I think that is what you ask the military 
forces to do, is to be effective. If we are not effective, then 
all of the money spent on us is a waste. So I think we have to 
look at it in those terms and whether in fact we are achieving 
the effectiveness we want, given that we attain some 
efficiency.
    Mr. Marshall. Mr. Chairman, would the gentleman yield for 
just a second? I am sorry.
    Or Mr. Turner, I am not familiar with all this yielding 
stuff, would the gentleman yield?
    Mr. Turner. Sure, Mr. Marshall. Absolutely.
    Mr. Marshall. Thank you.
    Gentlemen, I think it would be very helpful to me, and I 
think the panel, and if you would like to do it as an addendum 
to what the chairman has asked you put in writing, your 
responses, a lengthier response on this; it is my sense that 
Army, Marines, Navy are convinced that if this executive agency 
thing is put in place with Air Force in charge, that somehow 
you substantively won't get what you want. In other words, you 
will be less effective. It is exactly what you just said, 
General Alles.
    Could you, in your response, detail how that would 
necessarily occur? It is going to have to be something along 
the lines of Air Force just isn't going to pay attention to 
what you want as your people, under your control, paid by you, 
subject to your orders, would pay attention to what you want. 
It is going to have to be something along those lines, I 
assume.
    But we need to see that, because there are clearly 
efficiencies that can be obtained here. This is a joint world. 
Goldwater-Nichols II, Mr. Sestak made reference to that, it may 
be that we simply have to order more integration here because 
for some reason DOD can't get it done and the services won't 
get it done, or it may be that we should back off and 
acknowledge that if we try to do that, we are going to make 
ourselves less effective and be a penny wise, pound foolish.
    Mr. Abercrombie. That will get addressed in the--thank you. 
That will get addressed in the response.
    And Mr. Bishop--I know, General, I know how important it 
is, but Mr. Bishop has not had an opportunity yet and wants to 
conclude.
    Mr. Bishop. General, I will let you actually answer this 
question anyway, and because we are running to a vote, I am not 
going to be cute and ask questions. Let me just run through 
what I want to say.
    Mr. Abercrombie. Sure.
    Mr. Bishop. Chairman Abercrombie, I appreciate you holding 
this hearing. It is extremely important. It is also very 
troubling.
    The things we have heard today from all of you reminds me 
as if I am reading a textbook history about 60 years ago when 
we were deciding whether to have an Air Force in the first 
place. It is basically the same argument, more compound 
sentences being produced and different technology, but it is 
the same basic arguments that are going through there.
    I want to take it one step further, as I assume we are 
probably going to not come back after the vote, Mr. Chairman?
    Mr. Abercrombie. Yes. We will conclude now, but the 
subcommittee will meet. I will call a meeting of the members.
    Mr. Bishop. I am sure you will. We always get those 
meetings.
    But let me just take it one step further. And I am 
assuming, General Deptula, that as we envision the future of 
the Air Force, fighter commands or fighter squadrons will 
consist of manned missions, manned fighters, in conjunction 
with unmanned aircraft at the same time. And I would just say 
this for my colleagues on the staff, if we do not produce the 
F35 in sufficient quantities, we do not have the technology to 
combine those in the future, and 15 years from now we are going 
to be in a less secure situation if we don't have that 
technology going with this technology.
    I am going to put that pitch in for the 35 and the 22 as 
essential aircraft to combine with the unmanned aircraft that 
we have that----
    Mr. Abercrombie. And to think I was inches from a clean 
getaway.
    Mr. Bishop. I am clean. I am done.
    Mr. Abercrombie. Go ahead, General. You get the last word.
    General Deptula. Thank you very much, Mr. Chairman.
    Mr. Abercrombie. I want to take that anxious look off your 
face.
    General Deptula. I just wanted to reflect on Congressman 
Marshall's remarks in articulating that the objective of the 
Air Force here is to get medium- and high-altitude UAV ISR 
distribution to be as transparent and joint as the GPS signal 
is to all the services. GPS is 100 percent owned and operated 
by the Air Force, yet its effect has become so ubiquitous, it 
is depended upon by all the services without any concern. We 
can do that with medium- and high-attitude UAVs.
    Mr. Abercrombie. Thank you.
    General Deptula. And I would request to have my complete 
oral statement be entered into the record.
    Mr. Abercrombie. Yes, of course. Of course you can.
    And again, all of you, take the opportunity of Mr. Turner's 
question to write your definitive statement on this and we will 
take it from there. I am very----
    Mr. Turner. Mr. Chairman, can I ask for one more thing? 
When they are doing that written statement, I would really like 
for each of them to also comment on whether or not they 
disagree with the GAO report, as General Sorenson said that he 
did.
    Mr. Abercrombie. Okay. Sure.
    Mr. Turner. Because saying that we won't get what we want 
and the GAO report saying, well, you know you haven't asked, is 
probably a pretty good conclusion.
    Mr. Abercrombie. We will do that.
    We are very grateful to you, very, very much indeed. And we 
will try to bring this to a quick resolution.
    Hearing is closed.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
     
=======================================================================

                            A P P E N D I X

                             April 19, 2007

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 19, 2007

=======================================================================
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 19, 2007

=======================================================================
      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. Regarding UAVs, could we acquire more equipment if 
we got rid of duplication of research and development?
    Admiral Clingan. The Navy does not believe there is duplication of 
effort in its UAS programs. The Navy and Marine Corps continually 
review opportunities for achieving both warfighter and acquisition 
efficiencies in their UAS and all other programs. A key element of the 
strategy is to leverage and apply the successes of the other Services. 
UAS-specific examples include:

        <bullet>  Army and Navy collaborate extensively on the Fire 
        Scout Program. Army buys the aircraft off of the Navy contract. 
        Fire Scout aircraft and avionics are currently over 90 percent 
        common. The GAO report highlighted this efficiency as a 
        positive example of inter-service cooperation.

        <bullet>  The Navy/Marine Corps are retiring the Pioneer system 
        and are buying Shadow 200 systems--including aircraft and 
        ground control systems--directly from the Army.

        <bullet>  The Navy/Marine Corps have curtailed further 
        development and production of the Dragon Eye system in favor of 
        buying the Raven B system directly from the Army.

        <bullet>  The Navy leveraged an existing Air Force contract to 
        procure the Global Hawk Maritime Demonstration System (GHMD) 
        system. Development has been limited to modifications to the 
        payload, which in turn have been provided to the Air Force and 
        are planned to become part of the Global Hawk Block 10 
        baseline. Additionally, Navy GHMD test data will be used to 
        help the Air Force mitigate Global Hawk Block 10 schedule risk.

        <bullet>  The Navy's Broad Area Maritime Surveillance (BAMS) 
        UAS Program is being acquired competitively. Planned system 
        developmental efforts are limited to those attributes uniquely 
        related to the maritime environment including sensors, 
        architecture, and tactical integration. The Navy is leveraging 
        all the Air Force as well as other DOD UAS accomplishments.

        <bullet>  Last, in order to avoid any unnecessary duplication 
        of effort or redundancies, the Navy fully supports the Joint 
        UAS Center of Excellence and Joint UAS Material Review Board. 
        These organizations, which are jointly manned and report to the 
        Joint Staff, will improve the Department's ability to 
        efficiently provide interoperable and effective capabilities to 
        the warfighter. These organizations are already positively 
        informing our programs of record.

    In summary, the Navy has an excellent relationship with the Air 
Force, Army and Marine Corps that allows information to flow freely 
between program managers, requirements officers and leadership. In this 
way, we can focus on developing the unique aspects that our missions 
and roles require, while taking full advantage of efforts that have 
gone before.
    Mr. Abercrombie. Regarding UAVs, could we acquire more equipment if 
we got rid of duplication of research and development?
    General Sorenson. Efficiencies are obtained by a collaboration of 
efforts between the Services in respect to Research & Development, 
whether the product is an Unmanned Aircraft System (UAS), or other 
materiel solution. If there are two or more simultaneous System 
Development & Demonstration (SDD) programs to meet a similar set of 
technical thresholds and Key Performance Parameters (KPP), that would 
be an example of a duplicate effort expending funding that could be 
used for other obligations/missions. In respect to the Medium-Altitude 
UAS, the U.S. Army, through the competitive process, included features 
on the Extended Range/Multi-Purpose UAS (Warrior) such as Automated 
Take-off and Landing System, a Heavy Fuel Engine, a Tactical Common 
Data Link to the One System Ground Control Station (already in use by 
the U.S. Army, USMC, and SOCOM), to achieve a capability that has 
greater endurance, 50 percent greater payload, and more than double the 
onboard power of the Predator, at less cost. The U.S. Army openly 
offered these advanced features to the USAF as part of the 
competitively awarded contract. The USAF accepted (January 2007) the 
Army ER/MP Air Vehicle as the potential system for their Block ``X'' 
Predator product improvement for the future and is procuring aircraft 
now. Additionally, the Army is providing the Air Force documentation of 
the ER/MP, such as the Test & Evaluation Master Plan (TEMP), and other 
information is being shared through Technical Interchange Meetings 
(TIM) between product management personnel. With a complete 
collaboration of efforts, the DOD saves valuable resources since the 
expenditure of funds for the System Development is not duplicated and 
both the Army and Air Force reap the benefits of commonality of the 
same basic aircraft which includes a redesigned fuselage/wing and 
improved engine. Historically, at the time of the Joint Requirements 
review for the ER/MP and the source selection competition, the Predator 
was still an Advanced Concept Technology Demonstration (ACTD). The 
benefits of the competition are evident in the selection of an aircraft 
within a full system design that is 10 percent lower in cost and 50 
percent more capable than the Predator. The U.S. Army's systems 
architecture deliberately reused the previous investments in training, 
installations, personnel, contracts management, and logistics to 
achieve the greatest commonality within the DOD.
    Mr. Abercrombie. Regarding UAVs, could we acquire more equipment if 
we got rid of duplication of research and development?
    General Alles. The Marine Corps is not duplicating effort in its 
UAS programs. The Marine Corps continually reviews opportunities for 
achieving both warfighter and acquisition efficiencies in its UAS 
programs. A key element of the strategy is to leverage and apply the 
successes of the other Services. UAS-specific examples include:

        <bullet>  The Navy/Marine Corps are retiring the Pioneer system 
        and are buying Shadow 200 systems--including aircraft and 
        ground control systems--directly from the Army. Fielding of the 
        Army One Ground Control Systems by the Marine Corps with the 
        Shadow 200 will significantly increase interoperability amongst 
        the services.

        <bullet>  The Navy/Marine Corps have curtailed further 
        development and production of the Dragon Eye system in favor of 
        buying the Raven B system directly from the Army.

        <bullet>  The Marine Corps lead ICD and CDD development for 
        Tier II/Small Tactical UAS (STUAS) is a joint collaboration 
        between the Navy, Air Force, SOCOM and Marine Corps.

        <bullet>  Last, in order to avoid any unnecessary duplication 
        of effort or redundancies, the Marine Corps fully supports the 
        Joint UAS Center of Excellence and Joint UAS Material Review 
        Board. These organizations, which are jointly manned and report 
        to the Joint Staff, will improve the Department's ability to 
        efficiently provide interoperable and effective capabilities to 
        the warfighter. These organizations are already positively 
        informing our programs of record.

    In summary, the Marine Corps has an excellent relationship with the 
Army, Navy and Air Force, which facilitates the flow of information 
between program managers, requirements officers and leadership. This 
allows the Marine Corps to focus on developing the unique aspects which 
its missions and roles require, while taking full advantage of previous 
developmental and operational efforts.
    Mr. Abercrombie. Regarding UAVs, could we acquire more equipment if 
we got rid of duplication of research and development?
    General Deptula. Yes, the Air Force believes there is duplication 
of effort with regard to medium- and high-altitude UAV acquisitions.
    For example, with the exception of its weapons payload capacity, 
the Predator (MQ-1) meets all threshold Key Performance Parameters 
(KPP) approved by the Joint Requirements Oversight Council (JROC) for 
the Army's Warrior UAV. The larger MQ-9 air vehicle is capable of 
meeting all Warrior threshold KPPs. Despite these considerations, the 
Army invested $190M in research and development for the Warrior system. 
While the Army investment did yield improvements to the MQ-1 family of 
air vehicles that the AF plans to take advantage of, the MQ-1 was in 
production at the time the Army began their development efforts for 
Warrior, and could have delivered operational capability much sooner 
than the current Extended Range Multi-Purpose (ER/MP) program of 
record. It is our understanding that the Army ER/MP will not be 
deployed with initial operating capability until 3QFY09. Air Force MQ-1 
has been deployed since 1995, and is currently maintaining 12 combat 
air patrols for CENTCOM, providing 24/7/365 UAV orbit capability. Full 
rate production for the Warrior program is not scheduled to begin until 
4QFY09. At that time, the Air Force will have 19 combat air patrols 
available for the Combatant Commanders. It is reasonable to believe 
that significant savings could be realized by combining MQ-1 and ER/MP 
program acquisition, contracting, research and development, depot 
maintenance, logistics and training activities into a single effort. 
New capabilities needed to meet additional Warrior requirements could 
have been spiraled into the existing MQ-1 program, as the Air Force has 
done throughout the history of the Predator. Although the Army asserts 
that there is a 10% reduction in Warrior program costs when compared to 
those of the Predator program, their analysis compares an existing, 
fielded capability to a program that has not yet finalized its 
production contract. The Army assertion is premature.
    The Navy BAMS program is another case where there is potential to 
realize significant savings by eliminating duplicative efforts. 
Although the Air Force and Navy have collaborated extensively on the 
Global Hawk Maritime Demonstration effort, the Navy's Request For 
Proposal for BAMS could result in initiation of a completely new, high-
cost acquisition program. A derivative of the existing MQ-9 or RQ-4 can 
satisfy mission requirements of the BAMS platform. Savings could be 
realized by using an existing platform for BAMS, even though new or 
modified sensors may be required for maritime use.
    The Air Force believes that consolidating development, procurement, 
contracting activities, depot maintenance, logistics, and training for 
medium- to high-altitude UAVs could offer at least a 10% savings 
compared to the cost of separate efforts. However, detailed analysis is 
needed to accurately quantify the potential savings. Certainly, if 
acquisition efforts were combined and DOD was able to use existing 
contract vehicles and production capacity, initial research and 
development activities and costs could be reduced. DOD would decide how 
best to apply those savings. Acquiring more UAV systems, fielding UAV 
combat capability sooner, and reducing UAV unit costs would be among 
their options.
    Mr. Abercrombie. What is the process and what office is responsible 
for providing oversight of service, combatant command, OSD, and defense 
agency, to include JEIDDO, ISR acquisition programs and operational 
implementation to ensure a coordinated, effective program. Does this 
office have the authority to modify service and agency budgets?
    Mr. Landon. The Department employs Portfolio Management to provide 
authority for oversight of Service, combatant command, OSD, and defense 
agency ISR programs. The portfolio management structure ensures unity 
of effort from strategy to execution and also provides a forum to bring 
together the three key DOD processes: Planning, Programming, Budget and 
Execution Process (PPBE), Joint Capabilities Integration and 
Development System (JCIDS) and Defense Acquisition System (DAS) into an 
end-to-end fashion. The Battlespace Awareness (BA) Capability Portfolio 
Manager (CPM) integrates enterprise level investments from a Joint 
operational viewpoint of ISR performance and capabilities.
    Portfolio governance is provided through the Intelligence, 
Surveillance and Reconnaissance Integration Council. The BA CPM uses 
the Council to resolve issues and to develop trade space and identify 
new alternatives.
    Portfolio adjustments are made through the PPBE process. The 
Capability Portfolio Manager (CPM) enables resource decisions based on 
trade-offs within the portfolio after reviewing operational 
capabilities across the enterprise and prioritizing the warfighter's 
needs. The CPM recommends to the leadership of the Department needed 
adjustments within the portfolio which would allow effective use of 
resources. The CPM does not currently have the authority to modify 
Service or Agency budgets, but provides the overall recommendations for 
ISR budget allocations to the Secretary of Defense in building the 
Department's Budget.
    Mr. Abercrombie. Are you familiar with all of the Joint Improvised 
Explosive Device Defeat Organization TSR acquisition projects and are 
you otherwise satisfied that there is no unnecessary overlap among the 
JIEDDO projects, services and defense agencies among ISR programs?
    Mr. Landon. I am familiar with JIEDDO and their ISR work. JIEDDO 
seeks to expedite and rapidly deploy the national technical base to 
provide better weapons, training, intelligence fusion, and defensive 
capability to the warfighters. Unlike most ISR acquisition programs, 
the key to JIEDDO's mission is rapid acquisition of predominantly, non-
developmental items. Consequently, although there may be some overlap 
among JIEDDO's projects, we view this overlap as a by-product of 
seeking to explore and field different approaches to solve urgent 
problems rapidly.
    JIEDDO's focus is on Department of Defense actions in support of 
Combatant Commanders' and their respective Joint Task Forces' efforts 
to defeat Improvised Explosive Devices as weapons of strategic 
influence. To accomplish this mission JIEDDO seeks near-term, non-
developmental items and capabilities that can be rapidly adapted, 
demonstrated and fielded within 6-18 months after contract award.
    Mr. Abercrombie. What OSD office is responsible to ensure that the 
services aerial common sensor acquisition programs are effectively 
coordinated to ensure maximum use of common mission equipment, 
training, infrastructure and interoperability? Does this office have 
the authority to modify service and agency budgets?
    Mr. Landon. In September 2006 the Deputy Secretary of Defense 
selected Battlespace Awareness as one of the four areas for capability 
portfolio management. The Office of the Deputy Under Secretary of 
Defense for Acquisition, Resources and Technology is the Battlespace 
Awareness (BA) Capability Portfolio Manager (CPM). The BA CPM is 
responsible for facilitating strategic choices and making capability 
tradeoffs. Coordinating Aerial Common Sensor program issues among the 
Services is part of the BA CPM's responsibility.
    The Department's four CPMs do not currently have the authority to 
modify Service or Agency budgets, however, the CPMs provide overall 
recommendations for budget allocations within their capability areas to 
the Secretary of Defense in building the Department's Budget.
    Mr. Abercrombie. Is there any plan to provide joint capability 
portfolio managers the authority to direct or redirect service budgets 
when it is determined that specific ISR programs could be improved by 
so doing?
    Mr. Landon. The Department's portfolio management model emphasizes 
resource decisions based on trade-offs within a given portfolio. The 
Battlespace Awareness (BA) Capability Portfolio Manager (CPM) exercises 
authority provided by and with the approval of the Deputy Secretary of 
Defense to ``direct'' the ISSR POM and budget. The CPM has an open and 
direct line to the Milestone Decision Authority and to the Program 
Managers (PMs) for programs within the portfolio. The CPM develops and 
issues POM guidance for ISR programs; controls and approves budget 
execution, and advocates resource needs. The BA CPM will recommend 
resource allocations to the Deputy Secretary of Defense through the ISR 
Council and the Deputy's Advisory Working Group.
    Mr. Abercrombie. Recapitalization of DOD ISR programs and achieving 
global persistent surveillance are listed as two of DOD's strategic 
objectives. Has the cost of achieving these two objectives been 
established? If so, please provide.
    Mr. Landon. Recapitalization of DOD ISR programs and global 
persistent surveillance are incremental capabilities that evolve over 
time and will incorporate elements of space, air, land, and maritime 
domains. The cost of achieving these objectives is included in the 
FY2008 President's Budget and is spread across multiple funding lines 
(programs) and multiple years within the budget. These two objectives 
were not separately costed as specific initiatives but achievement of 
these goals is important to the Department.
    Mr. Abercrombie. The GAO indicates the Strategic Command is charged 
with making recommendations on the allocation of ISR assets to meet 
worldwide requirements, but does not have the visibility of all ISR 
assets in executing its responsibilities. Do you agree with this 
observation? If so, are steps being taken to correct this shortcoming?
    Mr. Landon. I agree with the observation but capabilities are being 
developed and fielded now that will provide needed insight and 
visibility into ISR assets. To make sound ISR allocation 
recommendations, global visibility of ISR assets is essential. An 
efficient ISR enterprise must leverage all available resources, 
integrating DOD, national and allied partner ISR capabilities. 
Visibility includes the awareness of and access to all available ISR 
capabilities, combined with the ability to capture collection 
requirements, tasking, and asset allocation in real time. Capability 
gaps currently exist in applications and tools supporting Intelligence 
Collection and ISR Operations Management, particularly in the 
consolidated planning and management of National and Theater ISR 
assets. These include a lack of ISR global force management 
applications, databases and connectivity to plan, coordinate and 
execute ISR collection requirements. These capability gaps have been 
identified through Combatant Command Integrated Priority Lists as well 
as the Joint Staff's recent Winter 2007 Capability Assessment. 
USSTRATCOM's Joint Functional Component Command-Intelligence, 
Surveillance, and Reconnaissance (JFCC-ISR) in coordination with the 
Defense Joint Intelligence Operations Center as DOD's Collection 
Manager, is evaluating and developing integrated capabilities for ISR 
management to help address these capability gaps. The initial versions 
of these software tools are currently fielded and are beginning to 
provide visibility into the Global ISR picture from the national to 
tactical arenas.
    Mr. Abercrombie. What is the status of coordination with the FAA 
and what are future plans for the operation of specific UAVs in U.S. 
airspace for homeland security and disaster response purposes?
    Mr. Landon. DOD coordinates with FAA through the DOD Policy Board 
on Federal Aviation (PBFA) for policy issues related to the 
Department's operations in the National Airspace System (NAS). Issues 
such as airworthiness standards, operational requirements, safety 
oversight activities, and airspace modernization are examples of such 
policy issues. To better coordinate DOD and FAA efforts on a daily 
basis, each military service and the PBFA has liaison representatives 
assigned to FAA headquarters. DOD participates in bi-weekly phone 
conferences with the FAA and representatives from Department of 
Homeland Security (DHS), and other government organizations to discuss 
issues, activities and developments related to operating Unmanned 
Aircraft Systems (UAS) in the NAS. The Deputy Secretary of Defense 
directed PBFA to work with FAA on a DOD/FAA Memorandum of Agreement 
(MOA) to allow ready access to the National Airspace System (NAS) for 
DOD UAS domestic operations and training. This MOA sets forth 
provisions allowing, in accordance with applicable law, increased 
access for DOD UAS into the elements of the NAS outside of DOD-managed 
Restricted Areas or Warning Areas.
    Regarding future plans for homeland security and disaster relief 
purposes, DOD is working to achieve more timely responses with our 
family of UAS in support of Civil Authorities during disaster relief 
situations. Operating UAS within the NAS (outside Restricted and/or 
Warning Areas) requires an FAA Certificate of Authorization (COA). The 
COA approval process can take up to 90 days. To facilitate the timely 
use of UAS, DOD is working with the FAA for contingently approved COAs 
for the Predator UAS and Reaper UAS. These contingent agreements 
provide much of the authority for a UAS to operate in response to a 
disaster. Final FAA approval of the contingent COAs is required prior 
to initiating UAS operations based on additional information related to 
the specific disaster. The pre-coordinated COAs cover disaster relief 
support only and is issued to the Joint Forces Air Component Commander 
directing the assigned UAS during such operations. The Army is 
submitting a similar COA request for the Shadow UAS.
    With the exception of the pre-coordinated COAs for disaster relief 
operations, DOD UAS support to Department of Homeland Security (DHS) is 
on a case-by-case basis initiated by a DHS request, and subject to 
approval by the Secretary of Defense. The Joint Concept of Operations 
(CONOPS) for UAS, released by the Joint UAS Center of Excellence in 
March 2007, provides an overarching CONOPS for UAS, including support 
for Homeland Defense and Civil Authorities. NORTHCOM also plans to 
release a UAS CONOPS later this year addressing Homeland Defense and 
civil support missions.
    Mr. Abercrombie. Are all theater-capable ISR assets in Iraq 
allocated to the theater commander to be tasked on a daily basis to 
meet theater requirements? If not, why not. Please list ISR theater-
wide assets.
    General Davis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Abercrombie. What is the status of coordination with the FAA 
and what are future plans for the operation of specific UAVs in U.S. 
airspace for homeland security and disaster response purposes?
    General Davis. The lines of communication and coordination between 
the FAA and the Services are open and functioning well. The FAA has 
formed a UAS Group that works to maintain and promote UAS-specific 
knowledge and to address operational and safety issues in a prompt 
manner. Additionally, the FAA has developed and employed an automated 
Web-based system as a means for DOD (and others) to request 
authorization to operate unmanned aircraft in non-segregated portions 
of the national airspace system. The FAA has demonstrated the ability 
to approve requests from DOD within 60 days and in some cases much more 
promptly. In preparation for future disaster relief operations, a 
standing FAA Authorization for US Northern Command's (USNORTHCOM's) 
Joint Force Air Component Commander to operate pre-coordinated UAS 
assets was established in May 2006.
    USNORTHCOM and DHS provide defense and security for the homeland. 
USNORTHCOM provides defense support of civil authorities (DSCA) when 
directed to do so by the President or the Secretary of Defense. Future 
homeland security plans requiring UAS operations will employ these DOD 
assets via DSCA with the appropriate FAA coordination. DHS is 
developing their own UAS capability to meet their mission sets--Coast 
Guard, Customs and Border Protection, and Immigration and Customs 
Enforcement. DHS coordinates directly with the FAA on their UAS 
operations. Additionally, DHS has a number of law enforcement functions 
not shared with USNORTHCOM. Therefore, DOD's use of UASs for homeland 
security missions is controlled at the Secretary of Defense level to 
monitor compliance with the Posse Comitatus Act.
    Mr. Abercrombie. General Pace has been quoted as saying he favors 
integrating certain classes of unmanned aircraft into mainstream 
operations in Iraq, is this accurate? If this is his view, is this 
consistent with current practice being followed by the in Iraq?
    General Davis. General Pace's view is consistent with current 
practices being followed in Iraq. All aircraft flying above 3,500 feet 
in Iraq today are part of the air tasking order (ATO), including 
unmanned aircraft systems (UAS). In this sense (airspace 
deconfliction), unmanned aircraft are integrated into mainstream 
operations in Iraq now. It is important to note, however, that listing 
aircraft on the ATO by design does not give the Joint Force Air 
Component Commander (JFACC) ``real-time'' visibility of the specific 
mission tasking of the aircraft due to decentralized execution by local 
commanders. In actual practice, a UAS listed on the ATO does not 
provide JFACC with the authority to task it. However, it does provide 
the JFACC with awareness of an unmanned aircraft's presence, who is 
operating the vehicle, and the information necessary to contact the 
controlling agency, if required.
    Mr. Abercrombie. General Pace is also quoted as saying, ``It makes 
absolute sense to me that things flying above 3,500 feet should be part 
of the ATO, air tasking order, so that there is deconfliction of the 
airspace and the Joint Force Air Component Commander--normally Air 
Force but not necessarily--is the right person to ensure that the 
airspace is deconflicted.'' Is this General Pace's view? Is this the 
practice?
    General Davis. General Pace's statement echoes the procedures 
currently in place per Joint Publication 3-52, ``Joint Doctrine for 
Airspace Control in the Combat Zone,'' dated 30 August 2004, and Joint 
Publication 3-30, ``Command and Control for Air Operations,'' dated 5 
June 2003. The Joint Force Commander appoints an airspace control 
authority (ACA) to assume overall responsibility for the airspace 
control system. Normally, a Joint Force Air Component Commander (JFACC) 
is also designated and assumes the role of the ACA. Acting as the ACA, 
the JFACC staff issues the airspace control order (ACO) and the air 
tasking order to task joint force components and provide additional 
information about the missions during the tasking period. The 
coordinating altitude, a procedural airspace control method to separate 
fixed and rotary wing aircraft through altitude deconfliction, is used 
as the lower altitude limit for ACA/ACO authority and planning.
    In the IRAQ area of responsibility, Army unmanned aircraft 
operating above the coordinating altitude (actual altitude classified) 
are integrated into the ACO and their missions published as part of the 
daily ATO. Army unmanned aircraft direct-support missions currently 
integrated into the ATO include SHADOW, HUNTER, and I-GNAT/WARRIOR-
ALPHA. The Marine Corps operates separately from the ACA/JFACC and 
establishes a direct air support center responsible for the direction 
of air operations directly supporting ground forces, including their 
unmanned aircraft such as PIONEER, SHADOW, and SCAN EAGLE.
    Mr. Abercrombie. Are any of the Army UAVs of the I-GNAT, Hunter, or 
Warrior A class, the large medium altitude UAVs, made available to the 
Joint or Combined Forces Air Component Commander on a regular basis for 
the tasking of high priority theater requirements?
    General Sorenson. Depending on the missions within the Corps (Multi 
National Corp-Iraq) and divisions, the Hunter, IGNAT, and Warrior Alpha 
Unmanned Aircraft Systems (UAS) could be assigned missions above the 
tactical level to support strategic or theater level missions. These 
Army UAS are best suited to directly support the tactical commander.
    Mr. Abercrombie. If the medium altitude UAVs were made available 
for allocation to the highest priority UAV ISR targets, how many 
tactical UAVs would be available to support Army-organic tasking?
    General Sorenson. The Army has integrated manned and unmanned 
systems of manned aviation and unmanned aviation. Diverting the 
division Unmanned Aircraft Systems (UAS) such as the Warrior Alpha and 
the Extended Range/Multi-Purpose (ER/MP) UAS out of the tactical 
(division) battlespace is a conscious decision the next higher 
commander has to assess in terms of risk, time, and consequence. 
Priority and allocation depends on the time horizon of the command. 
Should the Joint Force or Combined Force Commander Force Commander take 
these systems it would create a void at the tactical level.
    For the CFACC assets, the CAOC approves the UAS target deck and has 
the final say on how assets are employed. CFACC asset allocation 
requires lengthy requirements planning and submissions 72-hours in 
advance which complicates target servicing due to the fluid tactical 
battlespace.
    Mr. Abercrombie. The Army has purchased eight Fire Scout UAVs for 
the Future Combat Systems program which is not planned for an initial 
combat capability until 2015. What is the status of those UAVs? How 
many missions and flight hours have they logged, by month/vehicle, 
since January 2006? What is the planned use rate and for what purpose 
for fiscal year 2008? Do they have the planned mission equipment 
installed and integrated? Is there any plan to deploy them to Iraq?
    General Sorenson. The eight Class IV UAVs (Fire Scout) you 
reference are pre-production air frames only. Only five airframes have 
been delivered and none have completed integration or flight testing. 
The purpose of these air vehicles is to perform integration of FCS 
specific avionics and computer systems, and testing of flight software 
to meet the FCS requirements. The Preliminary Design Review is 
scheduled for September 2008, the Critical Design Review is scheduled 
for July 2009, and First Flight is anticipated in November 2010. These 
dates are synchronized with the overall FCS integrated schedule. The 
Army continues to assess the technical performance in order to 
accelerate this capability.
    To date, no Army Fire Scout air vehicle has been fully configured. 
Of the five Army air vehicles that have been delivered, Army number one 
is 90% configured, less communication equipment and sensors. Army 
number two is approximately 40% integrated; no work has begun on the 
remainder of the air vehicles. No flights have occurred, only ground 
engine runs have been conducted.
    However, The Army and PM FCS have been working with Northrop 
Grumman, the developer of the Fire Scout, to explore earlier flight 
opportunities. The Program Manager of Unmanned Aerial Systems (PM UAS), 
Training and Doctrine Command System Manager (TSM) UAS and Army Test 
and Evaluation Command (ATEC) briefed the Vice Chief of Staff of the 
Army (VCSA) on the potential of providing Fire Scouts into theater next 
fiscal year (FY), after the air vehicles are integrated (with non-FCS 
communications equipment and sensors) and tested. The Army has not made 
a decision to deploy the Fire Scout UAVs. Previous initiatives included 
a proposal to the Joint Improvised Explosive Device Defeat Organization 
(JIEDDO). FCS agreed to provide two Fire Scout airframes and two 
Airborne Standoff Minefield Detection System (ASTAMIDS) payloads to be 
used in the JIEDDO proposal, that proposal was not funded by JIEDDO. In 
addition, we are discussing bailment of aircraft to Northrop Grumman 
and are supporting the Special Operations Command (SOCOM) fact finding 
efforts into Fire Scout.
    Mr. Abercrombie. What is the planned evolution of the class I FCS 
UAV? How many have been procured? How many are to be procured, in what 
time frame? What is the planned acquisition budget for the program and 
note any changes the program planned in FY07 for the FYDP. How are the 
ones that are currently fielded to be used through the FY07-08 period?
    General Sorenson. The Micro Air Vehicle (MAV) Advanced Concept 
Technology Demonstration (ACTD) program has transitioned into the 
Future Combat Systems (FCS) Class I Unmanned Aerial Vehicle (UAV) 
program. Honeywell is under contract to the FCS Lead System Integrator 
(LSI) to complete the development of the Class I UAV. Currently, no 
Class I UAVs have been procured/fielded (the MAVs residuals delivered 
under the ACTD program, remain with the Army's 25th Infantry Division). 
The MAVs delivered under the ACTD are currently being used in the 
development of Concept of Operations (CONOPS) and Technology Transfer 
Programs (TTPs) on how to best employ Vertical Take-Off and Landing 
(VTOL) UAVs. The 25th Infantry Division has submitted an Operational 
Needs Statement (ONS) to the US Army Pacific Command (USARPAC) to 
deploy the MAVs to Iraq. To date, no decision has been made on whether 
the MAVs will be deployed to Iraq. The MAVs will continue to be used by 
the FCS program for experimentation and to reduce the risk to the Class 
I UAV.
    The planned acquisition budget for the Class I program through FY13 
is as follows:

 
 
                FY08      FY09      FY10      FY11      FY12      FY13
 
RDT&E         $20.2M    $13.1M    $4.3M     $0.9M     $1.7M     $0.4M
Procurement   ........  ........  ........  ........  $0.9M     $4.9M
 


    The Procurement budget in FY13 supports acquisition of the first 
Class I UAV production (the FY12 Procurement budget supports 
acquisition of long lead materials). The total production quantity of 
Class I UAVs in FY13 is 62 (35 for the core FCS program and 27 for Spin 
Out 3). Current Army funding supports acquisition of 2,239 Class I 
UAVs, although the final quantity will be dependent upon future Army 
decisions.
    Mr. Abercrombie. Please provide the Army's definitions for UAVs. 
What is a ``tactical'' UAV and what current UAVs fall in each of the 
Army's various definitions for UAVs?
    General Sorenson. The Army's definitions for UAVs are defined in 
the Joint Field Manual 3-04.15, ``UAS Multi-Service Tactics, 
Techniques, and Procedures for the Tactical Employment of Unmanned 
Aircraft Systems'', dated August 3, 2006. This document describes three 
classes of Unmanned Aircraft Systems (UAS): Man-portable, Tactical, and 
Theater.

        <bullet>  Man-portable UAS are small, self-contained, and 
        portable. Their use supports the small ground combat teams/
        elements in the field. The Army's Raven UAS falls into this 
        category. It is hand-launched, soldier transported, and fielded 
        to battalions and smaller organizations. The Army's Future 
        Combat System (FCS) Brigade Combat Team (BCT) will have its own 
        man-portable UAS, the Micro Air Vehicle (MAV). The MAV will 
        feature both ``hover and stare'' and ``perch and stare'' 
        capabilities made possible by its lift-augmented ducted fan 
        propulsion system. This capability will allow operation 
        virtually anywhere, even in confined spaces.

        <bullet>  Tactical UAS are larger systems that support maneuver 
        commanders at various tactical levels of command and can 
        support the small combat teams when so employed and are locally 
        controlled and operated by a specialized UAS unit. The Army's 
        Shadow, IGNAT, Hunter, Warrior A, and Extended Range/Multi-
        Purpose (ER/MP) Warrior all fall into this category. The FCS 
        BCT will have its own tactical rotary-wing UAS, the Firescout.

        <bullet>  Theater. The Army does not have any UAS that fall 
        into this category.

    In addition to these definitions, the Joint UAS Center of 
Excellence (JUAS COE) Concept of Operations (CONOPS), as endorsed by 
the Army during FY07, defines three ``Tactical'' UAS. The Raven is 
considered a ``Tactical 1'' system by the JUAS COE CONOPS since it is 
hand-launched, soldier transported, and fielded to Battalions and 
smaller organizations. The Shadow is defined as a ``Tactical 2'' system 
per the JUAS COE CONOPS since it is mobile-launched, vehicle 
transported, locally controlled and operated by a specialized UAS 
platoon within the Brigade Combat Team (BCT). The IGNAT, Hunter, 
Warrior A, and Extended Range/Multi-Purpose (ER/MP) Warrior are classed 
``Tactical 3'' systems within the JUAS COE CONOPS since they are 
organic to the Division, conventionally launched (rolling take-off) and 
primarily operated out of airfields. The FCS MAV is a Tactical 1 and 
the Firescout is a Tactical 2, in accordance with the JUAS COE CONOPS.
    Mr. Abercrombie. Please provide any available information on 
fielded UAS accident and loss rates.
    General Deptula. MQ-1 Predator aircraft loss rates per flying hour 
have decreased from a rate of approximately 40/100,000 hours in 2001 to 
an all-time low in 2006 of 15.3/100,000 hours. This trend is comparable 
to early historical rates of the F-16--a true success story. Since 
September 2001, workload of the Predator force has dramatically 
increased, while the loss-rate continues to decline.
    There have not been any accidents or losses of fielded RQ-4 Global 
Hawk Block 10 aircraft.
    Mr. Abercrombie. Please provide any available information on 
fielded UAS accident and loss rates.
    Admiral Clingan. Information on fielded UAS accident and loss rates 
for Fiscal Years (FYs) 2004 to date in FY 2007 is as follows:

 
 
                                        FY04      FY05      FY06      FY07
 
Pioneer:                                    1      0.83      0.83      0.25   Crash rate per 1000 flight hours
Scan Eagle:                               N/A       5.5       3.1       2.0   Crash rate per 1000 flight hours
 


    The overall UAS loss rate (beyond repair) for Pioneer during 
Operation Iraqi Freedom (OIF) is 0.045 per 1,000 flight hours, and the 
loss rate for Scan Eagle is 1.6 per 1,000 flight hours. The very low 
loss rate on Pioneer is in part due to the inability to produce new 
Pioneers, which drives us to repair most crashed air vehicles. Scan 
Eagle is a low cost air vehicle (about $130K), and economic 
considerations result in only about 40 percent of the crashed air 
vehicles being repaired. Small, hand-launched UAS such as Dragon Eye 
and Raven B are classified as expendable items, and as such, accident/
loss rate data is not tracked.
    Mr. Abercrombie. Please provide any available information on 
fielded UAS accident and loss rates.
    General Alles. [See the information below.]

                              Marine Corps
                      UAS Loss Rates and Accidents
------------------------------------------------------------------------
                   FY06 USMC UAS Accident & Loss Rates
-------------------------------------------------------------------------
        UAS Type           Flight Hours      Accidents         Losses
------------------------------------------------------------------------
Dragon Eye                Not reported   Not reported      14
------------------------------------------------------------------------
Pioneer                   7,152.3        7                 0
------------------------------------------------------------------------
 
------------------------------------------------------------------------
           FY07 USMC UAS Accident & Loss Rates (thru July 07)
------------------------------------------------------------------------
        UAS Type           Flight Hours      Accidents         Losses
------------------------------------------------------------------------
Dragon Eye                Not reported   Not reported      2
------------------------------------------------------------------------
Pioneer                   5603.2         1                 0
------------------------------------------------------------------------
 
------------------------------------------------------------------------


    Mr. Abercrombie. Please provide any available information on 
fielded UAS accident and loss rates.
    General Sorenson. [See the information below.]

 
------------------------------------------------------------------------
                  FY06 Army UAS Accident and Loss Rates
-------------------------------------------------------------------------
           UAS Type             Flight Hours    Accidents      Losses
------------------------------------------------------------------------
Raven                                19,853            61            59
------------------------------------------------------------------------
Shadow                               69,332            63            15
------------------------------------------------------------------------
Hunter                                6,987             5             2
------------------------------------------------------------------------
IGNAT & Warrior A                    11,681             1             1
------------------------------------------------------------------------


 
------------------------------------------------------------------------
           FY07 Army UAS Accident and Loss Rates (thru May 07)
-------------------------------------------------------------------------
           UAS Type             Flight Hours    Accidents      Losses
------------------------------------------------------------------------
Raven                                10,714            45            32
------------------------------------------------------------------------
Shadow                               65,963            23             9
------------------------------------------------------------------------
Hunter                                6,316             4             3
------------------------------------------------------------------------
IGNAT & Warrior A                    10,740             1             1
------------------------------------------------------------------------

    Note: Losses are those Air Vehicle accidents resulting in an 
uneconomically reparable condition (usually 75 percent damage or more 
to vehicle), completely destroyed, or unrecoverable.

    Mr. Abercrombie. What aspects of the DOD organizational structure 
preclude effective management of the requirements-through-acquisition 
process? In your testimony you referred to a ``sloppy process.'' Can 
you provide more specific information as to how the requirements 
establishment and acquisition process needs to be modified and/or 
disciplined?
    Mr. Sullivan. There are multiple aspects of DOD's structure that 
contribute to problems with its requirements-setting and acquisition 
processes. They have led to poor acquisition outcomes--cost overruns 
and delays in delivering new systems to the warfighter. First, the 
department's requirements-setting process (JCIDS) is platform-oriented 
and hampered by stove-pipes across the services. Second, the 
department's planning, programming, budgeting, and execution process 
(PPBES) is not effectively integrated with the JCIDS and, therefore, 
does not constrain requirements early enough by matching needs with 
available resources. The result is that there are no clear priorities 
from which to choose programs and, at a strategic level, there are too 
many programs chasing too few dollars. This unhealthy competition for 
funding combined with unconstrained, stovepiped requirements creates 
poor business cases for acquisition programs. Third, as a result of 
this lack of clear priorities at the strategic level, the services' 
acquisition organizations begin individual programs with inadequate 
cost and schedule estimates. These programs are hampered from the start 
and further hampered during execution by a lack of controls (or rules) 
concerning program management tenure or that provide knowledge 
concerning technological, design, and manufacturing maturity prior to 
making the next incremental investment in a weapon system's 
development. Fourth, the department does not effectively include the 
voice of the S&T community in decisions about requirements, resources, 
and program execution at the appropriate times. Most programs begin 
with requirements for capabilities that are not yet invented, 
significantly complicating the execution of an acquisition program. GAO 
has issued numerous reports regarding these problems and potential 
solutions.
    Our written statement for the testimony provides some examples of 
these problems. There are many more. Two of these examples are the 
Global Hawk and the Predator/Warrior.

        <bullet>  The Global Hawk program exemplifies a requirements 
        process driven by the Air Force to include requirements for 
        capabilities that were not achievable. These requirements were 
        not constrained by the PPBES process since it is not integrated 
        with requirements-setting. As a result, the program's original 
        cost and schedule was significantly underestimated and 
        additional funds have had to be set aside for the program, 
        impacting other programs given available funding. Since then, 
        the program has encountered technology, design, and 
        manufacturing problems that have significantly increased its 
        cost and delayed deliveries.

        <bullet>  The Predator/Warrior debate exemplifies the 
        difficulty that the requirements-setting process has breaking 
        through stovepiped services. To date, the Army and the Air 
        Force have made some progress in acquiring these capabilities 
        together; however, the process has been very difficult and 
        there has been considerable resistance to a joint acquisition 
        within each service. This can lead to unnecessarily redundant 
        and inefficient acquisitions.

    Our recent best practices work (GAO-07-388) identified the lack of 
integration between the key decision support processes and the absence 
of a single point of accountability for acquisition investment 
decisions as two key structural contributors to the ``sloppy'' (perhaps 
better characterized as ``undisciplined'') nature of DOD's management 
of the requirements-through-acquisition process. We reported that DOD's 
acquisition decision-making structure is built on three separate 
processes that are headed by separate organizational entities. In 
addition, weapon system investment decisions continue to be heavily 
influenced by the military services. Within this structure the 
responsibility and authority for making decisions about what to buy, 
how to buy it, and how to pay for it is divided among the Joint Chiefs 
of Staff, the Under Secretary of Defense for Acquisition, Technology 
and Logistics, and the OSD Comptroller/PA&E respectively. This 
fragmented structure lacks effective accountability and has led DOD to 
commit to more acquisition programs than its resources can support.
    In contrast, we found that successful commercial companies take a 
portfolio management approach to making investment decisions to help 
ensure they pursue the right mix of programs to meet the needs of their 
customers within resource constraints. Successful portfolio management 
requires strong governance with committed leadership that empowers 
portfolio managers to make decisions about the best way to invest 
resources and holds those managers accountable for the outcomes they 
achieve. This type of an approach requires knowledge about the 
customer's requirements and available corporate resources--existing 
products, money, and technology--to be assessed in an integrated 
fashion early and often to ensure that investment decisions are 
adequately informed.
    While DOD implemented a new requirements process a few years ago, 
positive results have not been forthcoming and need and solution 
determinations are still overly stovepiped. These problems are deep 
seated and of a cultural nature. They generally are not solved until 
leadership (the Secretary as well as the Congress) exhibits the will 
change. There are many obstacles to creating the right environment for 
this cultural transformation. Below I list some of the actions that 
would help achieve better results in the requirements and acquisition 
processes.

        1)  An enterprise level (above the military services--OSD/ATL) 
        investment strategy to determine needs jointly within a 
        resource constrained environment. (Do not start more programs 
        than you can afford.)

        2)  A sound business case at the start of an acquisition 
        program (milestone B) that ensures requirements and resources 
        are matched--requirements are balanced to match the real 
        warfighter need, mature technology, design knowledge, short 
        cycle-times, and available funding.

        3)  An evolutionary approach that develops new capabilities in 
        increments rather than a single quantum leap.

        4)  A knowledge-based acquisition process that defines specific 
        criteria or knowledge that must be captured at key decision 
        junctures before investing further in the development program.

        5)  Program managers that are held accountable for the outcome 
        of their decisions and remain on programs until the product is 
        delivered.

        6)  Senior leadership committed to the application and 
        enforcement of a joint enterprise level investment strategy and 
        knowledge-based acquisition process.

        7)  Transparency in the acquisition decision making process.

    Mr. Abercrombie. Is GAO in a position to offer recommendations on 
what qualitative metrics DOD might use to measure the success of its 
ISR missions?
    Ms. Pickup. At the subcommittee's April 2007 hearing, we testified 
that DOD lacks sufficient metrics for evaluating the effectiveness of 
its ISR missions. For example, DOD currently assesses its ISR missions 
with limited quantitative metrics such as the number of targets planned 
versus the number collected and more work needs to be done to develop 
qualitative as well as quantitative metrics. DOD officials acknowledge 
more needs to be done and there is an ongoing effort within DOD to 
develop qualitative as well as further quantitative metrics. Such 
qualitative metrics would address how the warfighter is benefiting from 
information gathered during ISR missions. Below are some examples of 
qualitative metrics, consistent with those being considered by the 
department.

        --  Whether the essential elements of information requested by 
        the warfighter were satisfied or not and what effect the 
        captured intelligence had (e.g., Improvised Explosive Device 
        hot spots were identified).

        --  The impact the intelligence had on an operation (e.g., 
        partner security forces were able to maintain border integrity 
        and enforce border security).

    In addition to metrics that assess the success of individual ISR 
missions and assets, DOD should have metrics for tracking trends over 
time to assess whether ISR assets are meeting warfighter needs. These 
metrics would help inform DOD's decision making regarding ISR 
acquisition.

                                  <all>

</pre></body></html>
